<html>
<title> - EFFECTIVE STRATEGIES FOR ACCELERATED LEARNING</title>
<body><pre>[Senate Hearing 112-906]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-906
 
             EFFECTIVE STRATEGIES FOR ACCELERATED LEARNING

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

        EXAMINING EFFECTIVE STRATEGIES FOR ACCELERATED LEARNING

                               __________

                             APRIL 18, 2012

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and
                                Pensions
     Available via the World Wide Web: http://www.gpo.gov/fdsys/

                              ----------

 			U.S. GOVERNMENT PRINTING OFFICE

90-994 PDF                       WASHINGTON : 2013
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                          Washington, DC 20402-0001


	          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland		 MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico		 LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington 	         RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont             JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania       RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina             ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                     JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                    PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado              LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island         MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut

                     Daniel E. Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)


                            C O N T E N T S

                               __________

                               STATEMENTS

                       WEDNESDAY, APRIL 18, 2012

                                                                   Page

                           Committee Members

Bingaman, Hon. Jeff, a U.S. Senator from the State of New Mexico,
  opening statement..............................................     1
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....     3
Bennet, Hon. Michael F., a U.S. Senator from the State of
  Colorado.......................................................    54

                               Witnesses

Rudin, Thomas W., Senior Vice President, The College Board,
  Washington, DC.................................................     3
    Prepared statement...........................................     5
Dickson, Carolyn Bacon, Executive Director, O'Donnell Foundation,
  The Texas AP Incentive Program, Dallas, TX.....................    10
    Prepared statement...........................................    11
Winograd, Peter, Director, University of New Mexico Center for
  Policy Research, Albuquerque, NM...............................    17
    Prepared statement...........................................    19
Schubert, Marybeth, Executive Director, New Mexico Advanced
  Programs Initiative, Santa Fe, NM..............................    35
    Prepared statement...........................................    37
Vargas, Joel, Vice President, Jobs for the Future, Boston, MA....    43
    Prepared statement...........................................    45

                                 (iii)




             EFFECTIVE STRATEGIES FOR ACCELERATED LEARNING

                              ----------


                       WEDNESDAY, APRIL 18, 2012

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room
SD-430, Dirksen Senate Office Building, Hon. Jeff Bingaman,
presiding.
    Present: Senators Bingaman, Franken, and Bennet.

                 Opening Statement of Senator Bingaman

    Senator Bingaman. Why don't we go ahead and get started. I
do not know the other Senators who are going to get here this
morning; I hope we get a few. But we noticed this at 10
o'clock, so why don't we go ahead.
    This is a hearing of the Health, Education, Labor, and
Pensions Committee, and it is focused on, ``Effective
Strategies for Accelerated Learning.'' This phrase
``accelerated learning,'' has been used to refer to a variety
of issues in education.
    In the context of this hearing, we are referring to
different approaches that allow students to access higher
education coursework before they get to college. These
approaches include exam-based approaches such as the Advanced
Placement courses; dual credit or concurrent enrollment
courses; Early College High Schools, what I have heard referred
to as middle college high schools. There are some important
differences across these approaches, and one of our purposes
here is to try to understand those differences, and which of
these approaches makes the most sense.
    I think more than ever before, post-secondary education is
required for young people who want to have the skills needed to
compete for jobs in the 21st century workforce. Entry into
America's middle class depends on a quality education that
prepares students for college or a career. Unfortunately, post-
secondary education is not the reality for many of our
students. Nationwide, about 75 percent of students are
estimated to graduate from high school. That number is even
lower in my State of New Mexico, and in many States, it is
particularly lower among certain minority populations.
    At the next stage, about 30 percent of those who do
complete high school do not enroll in college or any additional
education. And finally, half of the students who begin to
pursue a college education, dropout before they complete any
additional certification or graduation. This means a sizable
proportion of American students do not proceed to college and
many do not proceed to good paying jobs.
    Accelerated learning approaches have become increasingly
common in our high schools, particularly those for students in
economically disadvantages areas to gain access to the rigors
of higher education coursework. In New Mexico, the units
required for students to graduate from high school now include
completion either of an advanced placement course, or honors
course, or a dual credit course offered in cooperation with an
institution of higher education, or a distance learning course.
    I think, clearly, we need to find ways in which the Federal
Government can support student pathways and successful ways for
students to access higher education, more rigorous coursework
as early as they are able to do that. And that is the purpose
of our hearing today, to see what is going on, and what it
makes sense for the Federal Government to try to support.
    Today, we have five expert witnesses to help us understand
these issues. And we appreciate them taking time out of their
busy schedules to be here. Let me just introduce the whole
group, and then we will have everyone give their testimony, and
tell us the main points we need to understand.
    Mr. Tom Rudin is the senior vice president for Government
Relations and Development with The College Board, and he will
discuss the status of the Advanced Placement program, which has
been created by The College Board.
    Miss Carolyn Bacon Dickson is the executive director of the
O'Donnell Foundation. She will tell us about the Texas AP
Incentive program, which I have had the good opportunity to
learn about in the past, but I am anxious to be updated on.
    Mr. Peter Winograd is director of the University of New
Mexico's Center for Policy Research and he is going to talk to
us about New Mexico's statewide dual credit initiative.
    Miss Marybeth Schubert is the executive director for the
New Mexico Advanced Programs Initiative, and she is going to
discuss the State's statewide education foundation's recent
activities concerning accelerated learning.
    Mr. Joel Vargas is vice president for Jobs for the Future,
and he is going to talk to us about his organizations work on
Early College High Schools, and any other issue he wants to
address.
    Why don't we start with you, Mr. Rudin. If you will give us
5 to 7 minutes of the main points you think we should
understand. All of your testimony will be included in the
record as if read. But Senator Franken and I, I am sure, will
have some questions so we want to have time for those.
    Go ahead, Mr. Rudin.
    Mr. Rudin. Thank you, Senator Bingaman. I appreciate the
invitation to be here. And on behalf of all of us at The
College Board, thank you for your longstanding support for
Advanced Placement.
    Senator Bingaman. Since we just have the two of us here,
let me see if Senator Franken wanted to make any statement
before we start with the witnesses.

                      Statement of Senator Franken

    Senator Franken. Well, I had not planned any, but I just am
very interested in this topic for a number of reasons.
    I just was in Minnesota and went to the STEP school, which
is in Anoka and Hennepin County where the students are getting
college credits in high school.
    I went to a college affordability roundtable at the
University of Minnesota where we heard from about 10 students
from different colleges in Minnesota, and every story was a
little hair-raising in terms of how much these kids work, how
much debt they are going to be left with at the end of their
time, even though they work or even though sometimes they take
a year off of school in order to make money.
    Part of this, to me, there are a number of purposes of
accelerated learning and part of the purpose is to perhaps
lower the cost of college. The other is to increase the rigor
of the education in high school, increase high school
graduation rates, increase college attendance rates, and
replace the need for remediation in college.
    These are all good things, and I want to hear a little bit
about what we can do in the Federal Government to encourage
this, and also how scalable all of this is to schools that do
not have this.
    So that is it. It was not a prepared opening statement. It
is probably, as the person writing the transcript, could tell.
Could you? Yes, I got a thumbs-up there for the record.
    Senator Bingaman. Well, we appreciate that description of
your interest and appreciate you being here.
    Mr. Rudin, I'm sorry for getting you started and then
interrupting, but go right ahead, please.

   STATEMENT OF THOMAS W. RUDIN, SENIOR VICE PRESIDENT, THE
                 COLLEGE BOARD, WASHINGTON, DC

    Mr. Rudin. No, thank you very much, Mr. Chairman and
Senator Franken.
    Mr. Chairman, we owe such a debt of gratitude to you for
your support of AP over the years, and this body's strong
support for access to Advanced Placement courses and exams for
low-income students. So thank you for that. We truly appreciate
it.
    We are happy to have this opportunity to talk about the
Advanced Placement program that The College Board operates. AP
is a set of 34 college-level courses offered in high school
that are among the most influential general education programs
in the country, and that represent the highest standards in
American education.
    Next month, more than 2.1 million students will take more
than 3.6 million AP exams in schools across the country and in
30 countries. And then a month later, 11,000 high school
teachers and college faculty will come together to read and
score those exams.
    I want to start by saying we are all advocates for and fans
of K-12 higher education collaboration, and everyone on this
committee and in this room is a supporter of higher, more
rigorous standards. The AP program embodies both of those.
College and high school faculty come together to create the AP
courses, write the AP exams, and score those exams. It is the
true partnership between K-12 and higher education reflected in
AP.
    In terms of the rigor of these standards and assessments in
AP, The College Board has been very actively involved in
helping write the Common Core State Standards, and you are all
familiar with that. But in many ways, this Nation has a set of
common standards that are reflected in AP and the high rigor of
those programs. We are happy to contribute that to the work of
the Common Core conversation.
    Let me use my time to highlight quickly five benefits of AP
or five characteristics of AP.
    First, AP supports college and career readiness. These
courses provide strong preparation for college in the content
area, in skills development, and in the problem solving and
critical thinking skills students need to be successful in
college or work, whether you are going into engineering,
medicine, becoming a nurse, or a computer scientist. These
courses prepare you for success in college and work.
    Second, AP advances the equity agenda of this Nation. We
know, for example, through the research we have done that
college completion rates are 26 percent higher for low-income
students who have taken at least one AP course and succeeded in
it than their matched peers. By that, I mean low-income
students with the same SAT scores, same GPA, the one variable
being taking and succeeding in at least one AP course, college
completion rates are more than a quarter higher for low-income
kids. And we see similar percentages for underrepresented
minority students as well.
    Third, Senator Franken, AP does reduce college costs. If
you can use AP to get out of a semester's worth of college
work, you can save your parents--and I have a daughter who is a
senior in high school, so I am very in-tune with this notion--
you can save parents $5, $10, $20,000 worth of tuition by
securing college credit while in high school. So that is an
important part of this committee's work, I know, and I think AP
can be part of the solution.
    Fourth, AP drives school-wide reform. In other words,
students who take AP and students who are not taking AP in the
school still benefit from this program. Why? Because we have
140,000 AP teachers across the country and most of them take
some kind of training program, often on a college or university
campus. They will go back to their school and teach one or two
AP courses, and three or four regular courses, so all their
students benefit from the rigorous AP training.
    And finally, this committee has been deeply concerned with
STEM education. Even Senator Bingaman, when you all did the
work on ``Rising Above the Gathering Storm,'' you focused on
the value of more rigorous coursework in science, and
mathematics, and technology.
    We know, we have seen all the data about how we rank 21st,
23d, 25th in the world in calculus and physics on these
international exams. But on the most recent TIMSS study,
students in the United States who scored a 3 or better, that is
a successful score on an AP exam, in calculus and physics are
first in the world--first in the world--in their performance on
these exams. So we can do better than we have been, and one
path to that success is through the Advanced Placement program.
    I will conclude by simply thanking this committee for the
support that the Federal Government has provided for the past
13 years for low-income students to take the AP exam. The exams
are subsidized, in part, for low-income kids by the Federal
support. The College Board also subsidizes those exams so that
students pay nothing or, at most, $5 for an AP exam that can
then yield them tens of thousands of dollars worth of college
credit.
    Thank you, and I will be happy to respond to questions when
the opportunity arises.
    [The prepared statement of Mr. Rudin follows:]
                 Prepared Statement of Thomas W. Rudin
                                summary
    One of the Nation's most ambitious and effective accelerated
learning programs is the Advanced Placement (AP) program. As a set of
34 college-level courses taught in high school, AP has become the most
influential general education program in the country and it represents
the highest standard of academic excellence in our Nation's schools.
Next month, more than 2.1 million students will take 3.6 million AP
exams in the United States and across the globe; a month later, more
than 11,000 high school teachers and college faculty will convene for
1-week sessions at four locations to read and score these exams.
    The principles and values of the AP program can be stated quite
simply:

    <bullet> AP supports college- and career-readiness. AP represents a
commitment to high standards, rigorous curricula, quality assessments
and enriched academic experiences for students, teachers and schools.
    <bullet> AP can advance equity. Every student should have access to
AP courses and should be given the support he or she needs to succeed
in these challenging courses. AP is a powerful tool to close the gap in
high school graduation and college-going rates.
    <bullet> AP can drive school-wide academic reform. Schools that use
AP as an anchor for setting high standards and raising expectations for
all students experience significant returns not just in terms of AP
participation but in terms of increasing the overall quality and
intensity of their academic programs.

    AP is recognized as a powerful tool for increasing academic rigor,
improving teacher quality, and creating a culture of excellence in high
schools. Where AP programs flourish, schools and districts use AP to
support increased academic rigor and college-going aspirations.
    The Federal AP Test Fee and Incentive Program plays a key role in
expanding AP access and success for low-income students. When the
program began in 1999, a total of 82,000 AP exams were taken by low-
income students. Today that number exceeds 530,000.
    However, more needs to be done to increase access for underserved
minority and low-income students who are ready to succeed at AP. An
analysis found that 74 percent of American Indian/Alaska Native
students, 80 percent of black/African-American students, and 70 percent
of Hispanic/Latino students did not take the recommended AP subject for
which they demonstrated strong potential, thereby forgoing the chance
to take a rigorous course and the opportunity to save thousands of
dollars in college credits.
    AP has tremendous potential to drive reform in a powerful way in
all of our Nation's schools. AP is not for the elite, it is for the
prepared. Support for expanded AP and pre-AP teacher professional
development will prepare many more students for the opportunity to
succeed in college and work.
                                 ______

                              introduction
    One of the Nation's most ambitious and effective accelerated
learning programs is the Advanced Placement (AP) program. As a set of
34 college-level courses taught in high school, AP has become the most
influential general education program in the country and it represents
the highest standard of academic excellence in our Nation's schools.
The AP program is a collaborative effort between motivated students,
dedicated teachers, expert college professors and committed high
schools, colleges and universities. Ninety percent of the colleges and
universities in the United States, as well as colleges and universities
in 30 other countries, have an AP policy granting incoming students
credit, placement or both on the basis of their AP exam grades. Many of
these institutions grant up to a full year of college credit (sophomore
standing) to students who earn a sufficient number of qualifying AP
grades. Since its inception in 1955, the AP program has allowed
millions of students to take college-level courses and exams and to
earn college credit or placement while still in high school. Next
month, more than 2.1 million students will take 3.6 million AP exams in
the United States and across the globe; a month later, more than 11,000
high school teachers and college faculty will convene for 1-week
sessions at four locations to read and score these exams.
                             the ap program
    The principles and values of the AP program can be stated quite
simply:

    <bullet> AP supports college- and career-readiness. AP represents a
commitment to high standards, rigorous curricula, quality assessments
and enriched academic experiences for students, teachers and schools.
AP courses provide strong preparation for the challenges of college and
career, including not only rigorous content but also the discipline and
critical thinking skills necessary to keep up with a demanding
assignment, project and assessment load.
    <bullet> AP can advance equity. Every student should have access to
AP courses and should be given the support he or she needs to succeed
in these challenging courses. AP may be one of the most important tools
available to educators to close the gap in graduation and college-going
rates. Research indicates that a high percentage of minority students
who have demonstrated strong potential for AP courses, are not taking
these courses. Therefore, educators should be redoubling their efforts
to make AP participation the norm rather than the exception in our
Nation's high schools.
    <bullet> AP can drive school-wide academic reform. Schools that use
AP as an anchor for setting high standards and raising expectations for
all students experience significant returns not just in terms of AP
participation but in terms of increasing the overall quality and
intensity of their academic programs.

    Across the Nation, every State and most school districts are
exploring ways to raise standards and ensure that all students take
challenging courses in science and mathematics that prepare them for
success in college and career. AP is recognized as a powerful tool for
increasing academic rigor, improving teacher quality, and creating a
culture of excellence in high schools. Where AP programs flourish,
schools and districts use AP to support a cohesive school culture that
promotes both rigor and college-going aspirations. Students who take AP
courses assume the intellectual responsibility of thinking for
themselves, and they learn how to engage the world critically and
analytically. AP students learn to construct solid arguments, test
theories and explore many sides of an issue--the kind of thinking that
solves tough problems both inside and outside the classroom, in college
and beyond. AP coordinators, counselors, principals and district
officials support AP teachers by providing professional development
opportunities and other crucial resources. They offer a broad range of
AP courses and exams so that motivated students can develop their
passions and talents--whether they're interested in art, history,
languages, literature, math, engineering or science.
    Superintendents and principals recognize the value of AP to
leverage opportunity and achievement for all students. One principal
from Lincolnshire, IL, cited the role of AP as a driver for improving
all students' readiness for college and work:

          AP is helping more of our students develop the skills and
        confidence they need to succeed. Most of our graduates who have
        participated in the program report being exceptionally well
        prepared for the challenges of college. Feedback like this
        reinforces our commitment to expanding college-level
        opportunities for all of our students.\1\
---------------------------------------------------------------------------
    \1\ Dan Galloway, Principal, Adlai E. Stevenson High School,
Lincolnshire, IL, as cited in the 2001 AP Yearbook, College Board.
---------------------------------------------------------------------------
                 the ap test fee and incentive program
    The Federal AP Test Fee and Incentive Program plays a key role in
expanding AP access and success for low-income students. Since the
program's inception in 1999, more than 175 grants to States and
districts have resulted in programs that have touched the lives of
students throughout the Nation and promoted a college-going culture,
encouraging more of our Nation's students to set high goals for
themselves. When the program began, a total of 82,000 AP exams were
taken by low-income students. Today that number exceeds 530,000.
    While the fiscal year 2012 appropriations for the program was $27
million, a reduction from last year's appropriation of $43 million, the
Department of Education last week announced it would provide additional
funding so that the entire cost of AP exams for low-income students
would be covered with Federal funds. This commitment by Congress and
the Department of Education to fund these exams comes at a critical
time and will ensure that students can benefit from taking the AP exam
and gaining college credits for successful scores.
    Continued support for AP is important to students, parents, schools
and districts--and to the Federal Government--for a number of reasons:

    <bullet> First, the most important predictor of college success for
a student is not his or her high school GPA, his or her SAT score, or
his or her extracurricular activities. Rather, it is the quality and
rigor of his or her high school courses. Research shows that students
who take more rigorous courses, such as algebra II, trigonometry and AP
calculus, are the most likely to enroll in and complete college.
Additionally, AP is a powerful predictor of college success. By
providing students with the opportunity to enroll in challenging
courses during high school, it is more likely that these students will
have the confidence and motivation to set and achieve high standards
for themselves and will be encouraged to enroll and succeed in college.
    <bullet> Second, students who take AP can earn college credit,
which can save parents money spent on tuition and fees. Students who
take a semester's worth of AP and earn college credit on the exams can
save $5,000-$10,000 or more in tuition and fees in the State's public
colleges and universities, and much more at private institutions. By
enrolling in AP classes during high school, students are able to
academically prepare themselves for college, and take advantage of
financial savings for their future.
    <bullet> Third, schools, districts and even State departments of
education value the impact of AP. Students who complete AP courses are
not only prepared for the rigors of college, they are extremely well-
prepared for the assessments required by ESEA. The rigorous work
required in AP helps students master subject matter and prepares them
for any type of assessment challenge they might face, including State
accountability tests and college entrance exams.

    The impact of the Federal AP Test Fee and Incentive Program on the
lives of low-income students is significant. At a recent AP briefing on
Capitol Hill, a Baltimore teacher whose district received an AP
Incentive Grant in 2008 and who teaches at a school where 99 percent of
the students are African-American said the AP class changed the
trajectory of his students' lives:

          On the first day of school last year, I posted a sign on my
        door that read: ``Welcome to AP Literature. This class will
        change your life.'' I realized by the end of the year, though,
        that I'd been presumptuous to assume my class could change
        their lives, only my students themselves can do that. What the
        class did was provide the space, the stimuli, the support, the
        opportunity for students to believe in themselves, to
        accelerate their skills, to strive alongside like-minded peers,
        to be challenged by learning at the highest levels.\2\
---------------------------------------------------------------------------
    \2\ Sean Martin, AP Literature Teacher, Friendship Academy for
Science and Technology, Baltimore, MD at the AP Report to the Nation
Briefing held on February 6, 2012.

    The following chart illustrates the impact of AP on college-going
and completion rates for low-income and minority students.

              Five-Year College Graduation Rate Differences Between Matched AP and Non-AP Students
----------------------------------------------------------------------------------------------------------------
                                                                 Took, did not pass AP    Took AP course, no AP
            Student group                   Passed AP exam                exam                     exam
----------------------------------------------------------------------------------------------------------------
African-American.....................  28 percent higher......  22 percent higher......  16 higher
Hispanic.............................  28 percent higher......  12 percent higher......  10 percent higher
Low-Income...........................  26 percent higher......  17 percent higher......  12 percent higher
----------------------------------------------------------------------------------------------------------------
Control variables in the model include the student's 8th grade mathematics test score and economically
  disadvantages (free and reduced price lunch) status and the average test scores and percent economically
  disadvantaged students in the student's school. College graduation probabilities were calculated at the
  average of each variable for the student group in question, e.g., African-American students.

                          fulfilling potential
    And yet, access to AP courses is not at the level it should be.
Underserved minority and low-income students remain underrepresented in
AP classrooms, and the Nation continues to face challenges in
transforming the educational experiences of underserved students in
this country. Schools that serve significant populations of minority
and low-income students need support, including more professional
development opportunities for teachers, and a focus on differentiated
instruction and access to rigorous coursework for students. Simply
expanding access to AP is not enough to promote equity; schools must
expand access within a framework that supports teachers to help these
students succeed.
    While many schools and districts have worked to increase access to
AP, hundreds of thousands of prepared students are either left out of
an AP subject for which they have potential or attend a school that
does not offer the subject. An analysis of nearly 771,000 graduates
whose performance on the PSAT/NMSQT demonstrated that they had a strong
likelihood of success in an AP course and on the AP exam found that
nearly 478,000 (62 percent) did not take a recommended AP subject.
Underserved minorities appear to be disproportionately impacted (see
following chart): 74 percent of American Indian/Alaska Native students,
80 percent of black/African-American students, and 70 percent of
Hispanic/Latino students did not take the recommended AP subject,
thereby forgoing the chance to take a rigorous course and the
opportunity to save thousands of dollars in college credits.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            online learning
    To increase access to AP courses, many States and schools are
offering online opportunities to students. Online AP course development
is primarily being driven by publicly funded virtual State schools
providing classes free of charge to local high schools. While virtual
State schools, such as New Mexico's IDEAL-NM, show the highest AP
growth rates, exam volumes are low compared to traditional course
instruction method (less than 1 percent of overall AP exam volume).
    In 2011, a total of 18,369 AP exams were administered for courses
taken through more than 300 online providers. Of the students who took
these exams, 32 percent attended high schools in rural areas. A recent
analysis of AP online programs found that online courses as a share of
the total AP exam volume is nearly four times as high in rural regions
as in urban schools. Urban schools with large enrollment volumes report
offering online courses as a way to address scheduling conflicts and
extend course offering, whereas rural schools report a lack of
resources to offer traditional AP courses. The AP courses with the
highest number of online participants are Psychology, U.S. History and
English Language & Composition and the States with the highest share of
AP online provider students and exams are Florida, Virginia and North
Carolina.
    In addition to online AP courses offered by independent
organizations, a new college board online program is being developed
and piloted to improve student outcomes and teacher quality in AP
classrooms nationwide. This integrated system of online assessments,
instruction and professional development will empower teachers to
implement innovative, research-based instructional practices that help
students of diverse backgrounds succeed in rigorous coursework.
Teachers will have access to formative and interim assessments to
tailor classroom instruction to unique student populations and diagnose
each student's level of understanding at key progression points.
    The program identifies specific challenge areas in AP courses and
``unpacks'' critical concepts and skills with the most common student
misunderstandings flagged. Lesson plans, case studies, interactive
resources, formative strategies and more help teachers and students
monitor learning to close these gaps. The pilot system currently has
six challenge areas, 20 interim assessments, 100 instructional and
professional learning resources, and a collaboration space for new and
experienced AP teachers. The virtual Professional Learning Community
will allow AP teachers to share new instructional materials, best
practices and receive lesson plans and instructional resources for the
specific courses they teach.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              examples of successful ap expansion efforts
    In an effort to break down barriers to AP, schools throughout the
country have developed creative programs to encourage underserved
students to enroll in AP courses and help them succeed. Below are
examples of these initiatives.
    When teachers at San Pasqual High School in Escondido, CA realized
that AP students did not reflect the school's diversity, they came
together to recruit a broader population in the program. They knew that
students taking an AP class for the first time would need to improve
essential skills to succeed so they created a boot camp that focused on
developing five key skills: teamwork; communication; organization;
reading and problem solving (T-CORPS). Before starting their AP course,
students create platoons and compete in skills events to practice each
of the T-CORPS skills through experiential learning activities. As a
result of the boot camp, underserved AP students at San Pasqual High
School have increased their 3-plus scores on AP exams from 42 percent
in 2007 to 68 percent in 2010.
    Teachers at Franklin High School in Portland, OR fought to keep
their school open when budget cuts threatened closure. They worked to
increase rigor and created the Advanced Scholar Program. Students in
the program commit to taking at least four AP classes, or three AP
classes and one dual-credit class, during their 4 years at Franklin.
Each student receives a mentor, usually an AP teacher, with whom the
student must meet with twice a month. The Advanced Scholars also meet
monthly as a group, where they discuss personal organization, the
college application process, scholarship essays and personal essays for
college. From 2007 to 2010, Franklin High School's low-income AP
students grew from 20 percent to 37 percent of its total AP population.
    Underserved students at Pflugerville High School in Texas were not
choosing AP courses and teachers wanted to understand why. A focus
group of these students revealed that they often did not see teens or
teachers like themselves in AP and they hadn't always received the
necessary encouragement. Thus began the Ambassadors for AP program,
where students help recruit their peers to participate in AP by
speaking at parent information nights and performing skits about the
benefits of AP to demystify the program for students and parents. Since
the program began in 2006, the increase in 3-plus scores by underserved
AP students at the school has increased from 20 percent to 28 percent
in 2009.
                               conclusion
    AP has tremendous potential to drive reform in all of our Nation's
schools. AP is not for the elite, it is for the prepared. Support for
expanded AP and pre-AP teacher professional development will prepare
many more students for the opportunity to succeed in college and work.
Activities that support student preparation for AP starting even at the
middle school level will also have significant payoff. No single
program can have as significant and sustained impact on accelerating
student learning, and preparing more students for college and career
success, than advanced placement.
    Efforts at the school and State level have been strongly supported
by the Federal Government's significant investment in expanding AP
opportunities for low-income students. As a result, the growth in
participation among these students has been remarkable and helps to
prepare them for success in college while making college more
affordable. The AP program is proven to work, and produces achievement
gains like few other programs for students who need help the most. We
believe it is critical for the Federal Government to continue to
support AP and the students who benefit from the program.

    Senator Bingaman. Thank you very much.
    Miss Dickson, go right ahead.

    STATEMENT OF CAROLYN BACON DICKSON, EXECUTIVE DIRECTOR,
 O'DONNELL FOUNDATION, THE TEXAS AP INCENTIVE PROGRAM, DALLAS,
                               TX

    Ms. Dickson. Thank you, Senator. In Texas, we call you our
AP hero. And Senator Franken, thank you for the wonderful goals
that you have for our students.
    I am going to talk about how we do prepare more students to
graduate from high school, go to college, and earn that degree.
Right now, job creation is our national economic imperative,
but for that to happen fast and successfully, our other
national imperative must be to upgrade and strengthen our U.S.
teacher corps.
    We all remember our favorite teacher or teachers; it may
have been one or two who really got us to focus and helped us
through our education. The problem today is that we have 55
million students in K through 12 public education and not
nearly enough of those students are going to have the
opportunity to have a really good teacher that can turn them
from being an average student to a good student, and maybe even
a remarkable student.
    What this country needs, I think, is a systematic way to
implement teacher training and improve the quality of our
teacher corps. And certainly The College Board's excellent
teacher training program has shown how well that can succeed,
and it is a very good systematic way to implement teacher
training.
    Sixteen years ago, when the O'Donnell Foundation in Dallas
wanted to have more math, science, and English teachers, we
took The College Board's program, because we knew that was
successful, and to that we added financial incentives for
teachers and students. Those incentives are paid by the private
sector and they are based entirely on academic achievement. You
have to pass an AP exam before any incentive kicks in.
    Basically, the incentives are extra pay for extra work. AP
teachers work hard and they work their students really hard. In
Texas, you may know that our Friday night football games are
the big deal. Well, we have AP teachers that require their AP
students to go to a prep session on Friday night before they
are allowed to go to those football games. So for kids in
Texas, that is a pretty serious ask, but it works.
    Tom has, I think, covered very well the benefits of a
student who can pass an AP course, go to college, and succeed.
In Dallas--which was really our pilot school, which has a very
high minority population, it is over 90 percent--after a few
years, we noticed that the African-American and Hispanic
students in the Dallas district were achieving, were passing
scores at a rate three times their counterpart in the United
States. We realized we had to start much earlier because most
students cannot get to the 11th or 12th grade and be expected
to pass an AP exam.
    So we started a second program called ``Laying the
Foundation,'' where we train teachers beginning in Grade 6 to
work with those pre-AP students and get them prepared to take
AP when they get to the 11th and 12th grades.
    To fast forward, after those two programs, I will fast
forward to the congressional action in passing the America
COMPETES Act which has great incentives to take programs,
proven programs to scale it nationally. At that point, the
O'Donnell Foundation established the National Math Science
Initiative, which is to scale up successful AP, pre-AP
programs, and we added one new program called UTeach. UTeach is
to--in many American universities now, they recruit the math
and science majors to also get a teaching certificate and teach
in middle and high schools.
    The National Math Science has become a full-service teacher
training program and the good thing about it is that they are
not only training the classroom teachers, but they are training
the next generation of math, science, and English teachers to
keep supplying, resupplying the good teachers in those schools.
    Teachers are the real change for education, I think, in
this country. They get the rigorous curricula implemented, they
make students successful well beyond high school, and this lets
us know we can have excellence in public education. I think we
are on the verge of changing it. I think we need to support our
teachers, so they will inspire students, and we can get America
back on the right track.
    Thank you very much.
    [The prepared statement of Ms. Dickson follows:]
              Prepared Statement of Carolyn Bacon Dickson
                                summary
    There is tremendous leverage for our country when any student
completes high school, enters college and earns a degree. To accomplish
this requires re-focusing our public education enterprise to give all
students the opportunity to have superior teachers in an environment of
high expectations and with adequate resources for quality instruction.
    The key to improving education is strengthening the teacher corps.
When we improve the teacher corps, we will improve student performance,
greatly reduce drop-out rates from high school, improve college
graduation rates and close the performance gap. Content knowledge is
critical. In addition, today's classroom teachers urgently need
training in the skills required to teach discovery-based learning.
    Bill Gates, in a statement to the New York Times earlier this year
said, ``Developing a systematic way to help teachers get better is the
most powerful idea in education today.'' The National Math and Science
Initiative (NMSI) is a public-private partnership that has developed a
systematic way to ensure a perpetual supply of outstanding teachers,
especially in the STEM disciplines.
    NMSI supports training programs for classroom teachers in grades 6-
12. Its programs are based on the high standards of the College Board's
Advanced Placement program to which financial incentives based on
academic performance have been added. NMSI also is educating the next
generation of math and science classroom teachers through its UTeach
program being replicated in 29 universities in 14 States.
    The data show that NMSI has the potential to improve academic
performance for all types of students in grades 6-12. Its programs can
be implemented in rural schools large urban districts or entire States
with equal success. Public-private partnerships can champion the work
of NMSI with confidence that their investment will pay huge dividends
for our students and our country.
                                 ______

    Mr. Chairman and members of the committee, thank you for this
opportunity to participate in the panel discussion on Effective
Strategies for Accelerated Learning. I have been asked to describe the
work of the Texas AP Initiative and the work of the National Math and
Science Initiative.
    In doing so, I will emphasize three strategies that we find are
fundamental to expanding effective accelerated learning programs in our
schools:

    <bullet> The strategic importance of outstanding teachers.
    <bullet> The success of public-private partnerships to scale up
proven programs.
    <bullet> The tremendous leverage for our economy when any student
completes high school enters college and earns a degree.

    The Texas AP Incentive Program began 16 years ago. The
superintendent of the Dallas Independent School District asked the
O'Donnell Foundation to help address a serious problem: too few of its
high school graduates were academically prepared to enter college and
earn a degree.
    Research convinced us that the best predictor of college success is
the rigor of courses a student takes in high school. A challenging high
school curriculum frequently can overcome the deficits of family
background or income.
    In response to the Superintendent's request, we set a goal to
strengthen math, science and English, and we chose the College Board's
Advanced Placement (AP) program. AP classes are college-level courses
taught in high school by high school teachers. It was an ideal
implementation vehicle because:

    1. AP is built on high standards, national exams and measurable
results.
    2. The College Board provides teacher training jointly delivered by
university faculty and master AP teachers.
    3. Students who pass AP exams receive college credit at most U.S.
colleges and universities. This gives them a head-start as freshmen and
generally reduces the cost of tuition.
    4. AP classes already existed in many high schools, but were not
always being used to full advantage.

    The national AP exam is an academic coin that cannot be devalued.
This is important for any State and especially Texas with a high
minority population (14 percent African-American and 48 percent
Hispanic) and many rural school districts (39 percent of Texas' 1,235
districts enroll less than 500 students). Colleges know that an
Hispanic student in rural south Texas who passes an AP exam is just as
academically prepared for college as the Boston Latin School student
who passes the same AP exam.
    We added three elements to the AP program:

    1. Three years of College Board training required for AP teachers.
    2. Lead Teachers to provide the academic leadership in their
schools and district. They teach at least one AP course; they mentor
and support new AP and pre-AP teachers.S
    3. Financial incentives for teachers and students based on academic
achievement. Incentives are paid by private donors and are key to the
success of the program. They work because they are based on an
objective measurement of performance. Incentives are extra pay for
extra work. They accelerate the growth of AP, and help keep good
teachers in the classroom longer.
    The AP incentive program is voluntary for schools, teachers and
students and is open to all.
    The Dallas Independent School District (DISD) is the second largest
district in Texas. Over 90 percent of its 154,000 students are minority
students and many students are from low-income families. Yet, Dallas
students have achieved a remarkable record in AP.
    Before the AP incentive program began in 1996, DISD students passed
158 AP exams in math, science and English. Today that number is 2,000
and growing.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Minority students' success was even more dramatic: from 29 passing
scores before the program began, to 1,180 of the passing scores last
year.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    To compare one school to another or to a State or to the United
States, results can be measured per 1,000 junior and senior students.
Today the African-American and Hispanic students in Dallas outperform
their counterparts in U.S. public schools by more than 3 times.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    When DISD's research department evaluated the success of minority
students in the AP incentive program, it concluded that:

          Student performance is a function of opportunity, not
        ethnicity.
          It is the opportunity to have superior teachers in an
        environment of high expectations with resources for quality
        instruction.4

    The DISD results were impressive in demonstrating the number of
students that outstanding teachers can identify and inspire.
    As other donors stepped up to fund the program in their local
schools, the O'Donnell Foundation created a non-profit organization,
Advanced Placement Strategies (APS), and hired outstanding AP teachers
to implement the program statewide.
    The next step was to build on the success of AP by training pre-AP
teachers in grades 6-10 in a program called ``Laying the Foundation
(LTF).'' LTF provides the curriculum, benchmarks and training that
teachers need to begin preparing students in the 6th grade to master AP
courses in grades 6-12. It provides an enormous boost for all students
by giving them an early start on a demanding curriculum, putting a
focus on the important goals of graduating both from high school and
from college, and motivating them to succeed. The pre-AP experience
prepares students for success in high school, just as AP prepares
students for success in college.
    Taken together, these programs strengthen the teacher corps in
math, science and English in grades 6-12. Teachers are prepared to
teach a more rigorous curriculum. The training improves their ability
to teach students cognitive skills so they become analytical thinkers
and problem solvers. AP and pre-AP teachers teach AP and pre-AP classes
about half the time. The other half, they teach regular classes.
Principals say one of the greatest benefits of the incentive program is
that well-trained AP and pre-AP teachers raise the academic level of
the entire high school.
    Very importantly, AP teachers give their students the opportunity
to be successful well beyond high school. Passing an AP exam gives
students confidence to attend college. Data shows that AP students are
more likely to complete their freshman year which is a major predictor
of earning a college degree.
    That degree will change their lives.
    The big payoff for successful AP students is the high rate of
graduation from college.
    The 6-year graduation rate in Texas public colleges and
universities for AP Anglo students is 72 percent, compared to 30
percent for those who did not pass an AP exam. AP Hispanic students' 6-
year graduation rate is 62 percent compared to 15 percent for those who
did not pass an AP exam. And 60 percent of African-American students
graduate in 6 years, while only 17 percent of those who did not pass an
AP exam graduate in 6 years.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The high rate at which AP students earn college degrees is
important to our country's future. A college degree means success,
however measured. The national unemployment rate in March 2012 for
those with a college degree was 4.2 percent--giving college graduates a
95.8 percent chance of having a job. National unemployment rate was 7.5
percent for those with some college experience but no bachelor degree;
for those with no education beyond high school the March unemployment
rate was 8.0 percent.
    According to a National Bureau of Economic Research paper, the
earnings increases associated with Hispanic and African-American
students in an Advanced Placement Incentive program ``are large enough
to reduce the black-white earnings gap by one-third and to eliminate
the Hispanic-white earnings gap entirely.'' \1\ What begins in a 6th
grade pre-AP classroom has the potential to change lives and ultimately
move families out of poverty so they can look forward to a better
future.
---------------------------------------------------------------------------
    \1\ NBER Working Paper No. 17859, ``Do College-Prep Programs
Improve Long-Term Outcomes,'' issued in February 2012.
---------------------------------------------------------------------------
    APS scaled up quickly in Texas, while maintaining quality. The
Texas Legislature bought into the program by enacting the statewide
Advanced Placement Incentive Program to fund AP and pre-AP teacher
training, pay $30 of the cost of AP exams for students and provide
various campus incentives. Soon a bipartisan effort in the U.S.
Congress, led by Senator Bingaman, authorized the Federal Advanced
Placement Program. Our experience is that these Federal and State funds
have been used wisely to produce the desired results.
    The really big step for the Advanced Placement Strategies and
Laying the Foundation organizations was inspired 7 years ago by two
members of the HELP Committee, Senators Bingaman and Alexander, when
they asked the National Academy of Sciences to do two things: (1)
determine 10 actions in priority order to ensure that the United States
prospers in the global economy and (2) develop the concrete steps
necessary to implement each action. The National Academy report, Rising
above the Gathering Storm, listed K-12 science and mathematics
education as the Nation's top challenge.
    This led to the congressional response, America COMPETES Act, to
raise academic achievement by increasing (1) the number of teachers
serving high-need schools who are qualified to teach Advanced Placement
or International Baccalaureate courses in mathematics, science and
critical foreign languages; (2) increasing the enrollment in these and
pre-AP and pre-International Baccalaureate courses; and (3) supporting
statewide efforts to increase the availability of these teachers and
courses.
    Using the implementation plan that has success in Texas, The
National Math and Science Initiative (NMSI) was founded in 2008. NMSI's
mission is to ensure our country has the next generation of
mathematicians, scientists, engineers and innovators needed to produce
a workforce capable of successfully competing in the fiercely
competitive 21st century global economy.
    Led by a strong national board, and with major funding from
national corporations and foundations, NMSI began the work of taking to
national scale certain recommendations of the America COMPETES Act. In
addition to the capacity of APS and Laying the Foundation to train
large numbers of classroom teachers, another program, UTeach is
training the next generation of math and science teachers in a
different way. It recruits college freshman with an interest and
aptitude in math or science and encourages them to become middle and/or
high school teachers. They graduate in 4 years with a B.S. in math or
science and a teaching certificate. They know their content and are
trained in the best pedagogy.
    UTeach results are significant. Approximately 90 percent of UTeach
graduates go directly into teaching. Eighty-two percent of the UTeach
graduates are still teaching after 5 years as opposed to 65 percent
nationally. UTeach is now experiencing a big growth in student
participation across the country with more than 5,500 college students
enrolled.
    Three years after its founding, NMSI is proving programs to
strengthen the teacher corps in math, science and English can be
faithfully replicated nationally and achieve the same or better
results.

    <bullet> Twenty-nine universities in 14 States are implementing or
preparing to implement the UTeach program.
    <bullet> Six States have successfully replicated the AP and pre-AP
programs; two more States will begin the program this year with funds
from an i3 grant.\2\ From 2008 to 2011, participating schools in the
six States averaged an increase of 124 percent in passing scores on AP
math, science and English exams--five and a half times the national
average. Gains for African-American and Hispanic students increased 216
percent. Passing scores for female students increased 144 percent to
help reduce the gender gap in critical STEM fields.
---------------------------------------------------------------------------
    \2\ The six States are Alabama, Arkansas, Connecticut, Kentucky,
Massachusetts, and Virginia. Colorado and Indiana will implement the
program this fall.

    NMSI's newest initiative is to provide AP and pre-AP classes to
students from military families. Almost 2 million young people have a
parent serving in the U.S. military and more than 220,000 have someone
who has been deployed overseas. The separation, concerns about safety
and frequent transfers can be particularly difficult for children of
military families. Because AP courses are pegged to a national
standard, they provide continuity for students whenever their families
are transferred.
    NSMI has implemented the program in 28 high schools serving
military students, with commitments to raise the number to 37 schools
next year to serve a total of 20 military installations in 15
States.\3\
---------------------------------------------------------------------------
    \3\ Alabama, Arkansas, California, Colorado, Georgia, Hawaii,
Illinois, Kentucky, Maryland, North Carolina, New Mexico, Ohio,
Oklahoma, Texas, and Virginia.
---------------------------------------------------------------------------
    NMSI's strong partners in this mission include agencies of the
Department of Defense, national corporations and foundations, together
with wonderful support from the White House's Joining Forces
initiative. First Lady Michelle Obama summed up the importance of the
program:

          ``High schools with high numbers of military students are
        adding more Advanced Placement courses so these kids has the
        opportunity they deserve to attend college.''

    Of all the values we have in this country, education is one of the
most fundamental. It helps set our Nation's standard of living. For
individuals, educational opportunities are the fastest way to succeed.
Yet our country is not reaching all the students who can do well.
    The real change agents for education are outstanding teachers. They
are a powerful force to get rigorous curricula implemented. They prove
we can have excellence in public education. This gives assurance about
our future.
    We are on the verge of changing education for the better. We can
pick up the pace. We can invest more in our teachers to inspire our
students and get Americans back on track.
    Thank you for this opportunity to testify before the HELP
Committee. I would be pleased to answer your questions.

    Senator Bingaman. Thank you, very much.
    Mr. Winograd, go right ahead. Tell us what is happening in
New Mexico.

STATEMENT OF PETER WINOGRAD, DIRECTOR, UNIVERSITY OF NEW MEXICO
          CENTER FOR POLICY RESEARCH, ALBUQUERQUE, NM

    Mr. Winograd. I will do that, and I bring you greetings
from New Mexico, Senator and Senator.
    My colleagues and I have been doing a year's worth of
research on dual credit in New Mexico, and I want to recognize
Kevin Stevenson, and Angelo Gonzales, and Adai Tefera for all
of their good work.
    I want to make a couple of points. Senator, you talked
about looking at the different approaches to accelerated
learning. I think they are complementary. Advanced Placement is
outstanding, International Baccalaureate, we are going to talk
about dual credit, but middle high school, middle college high
schools. The important thing is these different approaches give
States a variety of options, and we want to think about that.
    The other key point I want to make is I think there are
lessons to be learned from AP and dual credit, middle college
high schools that are important for the entire education system
of the United States, and I hope to talk to you a little bit
about that.
    We are going to focus on New Mexico's experience, but I
need to say New Mexico is important for the country. New Mexico
looks now like what the country is going to look like in the
future. We are a minority-majority State. We are rural and
urban. We have communities of wealth and poverty. We have an
international border. We have very serious educational
challenges. So our feeling is, to quote Frank Sinatra, ``if
dual credit can make it in New Mexico, it can make it
anywhere.'' We think our lessons are larger than just New
Mexico.
    Senator Bingaman, you talked about New Mexico's education
reform. Part of that was requiring that all students in high
school take a dual credit course, or an AP course, or a
distance course. The first class that will do that is the class
that will graduate here next year, but we have enough data from
20,000 high school seniors and 12,000 university students,
college and university students, to be able to draw some
lessons. So I want to talk about those lessons.
    First, dual credit programs are an effective way of scaling
up. We have had over 12,000 New Mexico students participate. As
the education reforms rollout, we expect to see more of that.
    The second lesson is really important. Dual credit
students, in fact, graduate from high school quicker, more of
them graduate, more of them go to college, they need less
remediation. There are higher rates of graduation. And then
this last one is really important to Senator Franken's point,
there are faster times to completion and so, some of the data
we have showed that students in a community college get a
certificate 47 percent quicker. It is 2 years rather than 3.8
years. At the baccalaureate degree, it is about 10 to 12
percent quicker; that means less student debt which is just
crucial. It also means that students get out and are part of
the workforce, and you get to see returns in terms of salaries,
and taxes, and so forth.
    It is very clear that with dual credit, we need to pay
attention to how we make sure there is rigor in a large scale
program. There is some concern that dual credit courses taught
at the high school are not as rigorous as those taught on a
college campus, but it is important to remember for rural
students, we have high schools all across New Mexico; we do not
have college campuses all across New Mexico, so we need to
think about that.
    Lesson No. 4 is, in fact, colleges and high schools can
partner. That is no small feat. We have pockets where they are
doing that. We have some great partnerships in the Albuquerque
area between the University of New Mexico, Central New Mexico
Community College, and the Albuquerque public schools. We have
some great partnerships in Las Cruces, and we are very proud of
those.
    But I want to take a couple of minutes here, the few bits
of my time, to talk about the issues that we must face, I think
they face all accelerated learning programs, and there are the
ways that you all can help us think about making these programs
come to scale.
    First is really collaboration between high schools and
colleges and universities. There are numbers of points of
tension between those two institutions that really have to be
overcome. One of the biggest tensions is funding. We have
funding streams that reward colleges for having students
enrolled in colleges, funding streams that reward high schools
for having kids enrolled in high schools, and how do you think
about funding the two of them together.
    There are issues of quality and accountability. AP is
famous for its quality, and that is really excellent. As other
dual credit programs, accelerated programs come online, we have
to think about how to make sure there is quality.
    Then I want to take a minute for this one, because this is
really important. There is lots of debate in this country about
the value of going to college. Everybody kind of agrees high
school is pretty important, but you have seen in the national
debates: is college for everybody? What about just going
straight to work? What about career tech?
    We do not believe that everybody needs a 4-year degree. I
think it is very valuable, but I find it hard to make that
argument for everybody. But the large disparities in
educational attainment with African-Americans, Hispanics,
Native Americans should not stand. That is not an issue about
everybody going to college. That is an issue about making
access to higher education really equitable.
    Lesson No. 6, in all of the programs, AP, our programs as
well, you have underrepresentation of minorities. The program
you mentioned about starting early is really important. We find
we lose too many kids in early childhood, in elementary school,
and middle school and they are just not ready to take advantage
of more rigorous courses when they get to high school. So how
do we really address that?
    Where do we go from here? Thank you so much for this
committee and for you all's advocacy of higher education for
New Mexico. The vision of statesmen and stateswomen in this
country about what America could be is just crucial. We have
always had to fight for education and your fight is critical
there.
    Please continue to focus attention on the benefits of
accelerated learning programs. We think those are great for the
programs themselves, but they also have important lessons for
the rest of American education.
    Use all your levers, all the bills that you all are looking
at, the reauthorization of ESEA to include funding for
accelerated learning programs. And make sure there is some
accountability and teeth in those regulations.
    Thank you so much for the push that you all have done on
getting colleges, and schools, and State agencies to share
data.
    We cannot come in front of you and tell you whether the
money is useful or it is wasted unless we have good data, and
that is just crucial. So thank you for all your help.
    I will stop here by thanking you for this issue. It is
crucial to the future of our country. It is essential for all
of our kids and your championship of this issue is really
important. Thank you.
    [The prepared statement of Mr. Winograd follows:]
                  Prepared Statement of Peter Winograd
                                summary
    The hearing today focuses on accelerated learning. In particular,
how do we help more of our high school students to learn more and learn
faster so they can make a successful transition to college and careers?
    Why Is Accelerated Learning Important? Accelerated learning has the
potential to make schools more flexible and responsive to students,
increase the rigor of the curriculum, raise student aspirations, and
enhance collaboration between high schools and colleges. These changes
must occur if America is to meet the daunting educational challenges it
faces.
    What Do We Know About Accelerated Learning? Accelerated learning
covers a number of approaches including Advanced Placement,
International Baccalaureate, Dual Credit, and others. Our testimony
focuses on lessons learned from New Mexico's statewide Dual Credit
initiative. These lessons include:

    Lesson 1: Dual credit programs appear to be an effective approach
to large scale implementation of accelerated learning.
    Lesson 2: Dual credit is associated with higher rates of high
school completion, higher rates of college attendance, lower rates of
remediation, higher rates of college graduation, and faster times to
college completion.
    Lesson 3: Dual credit programs need to be refined and monitored to
ensure consistency and rigor across a large statewide program.
    Lesson 4: High schools and colleges can work together.
    Lesson 5: Dual Credit programs must overcome a number of issues if
they are to become large-scale sustainable efforts.
    Lesson 6: We need to ensure equity and accessibility of accelerated
learning programs to all students.

    Where Do We Go From Here? We offer four recommendations we believe
will help promote accelerated learning including:

    1. Keep the vision of a highly educated America alive.
    2. Focus attention on the positive results of accelerated learning
so that we can use lessons learned to strengthen America's education
system.
    3. Use every policy lever possible to get adults in different parts
of the education system to work together for the benefit of all
students.
    4. Continue to pressure States, schools, and colleges to share data
that can be used to determine the impact of our efforts.
    We thank the committee for its commitment to the welfare of our
children and our future.
                                 ______

    Chairman Harkin, Senator Enzi, and members of the committee, thank
you for the opportunity to speak with you today. Senator Bingaman, I
bring you warm greetings from your home State of New Mexico. My
colleagues Kevin Stevenson, Adai Tefera, and Meriah Heredia Griego, and
I are honored to have this chance to talk about New Mexico's efforts to
improve its education system.
    The hearing today focuses on accelerated learning. In particular,
how do we help more of our high school students to learn more and learn
faster so they can make a successful transition to college and careers?
We have organized our testimony today around three key questions:

    1. Why is Accelerated Learning so important?
    2. What do we know about Accelerated Learning?
    3. Where do we go from here?
               why is accelerated learning so important?
    One has only to look at the recent titles of the U.S. Senate HELP
Committee hearings to understand the daunting challenges we face as a
nation:

    <bullet> The Key to America's Global Competitiveness: A Quality
Education.
    <bullet> Is Poverty a Death Sentence?
    <bullet> Building the Ladder of Opportunity: What's Working To Make
the American Dream a Reality for Middle Class Families?
    <bullet> Educating Our Children To Succeed in the Global Economy.
    <bullet> The State of the American Child: Securing Our Children's
Future.

    We want to emphasize three recurring and interrelated themes that
come from your hearings and the national and local discussions around
these daunting challenges:

    1. Too many Americans are undereducated. The United States must do
a profoundly better job of developing its human capital if it is to
remain competitive in the world. We know that you are familiar with the
Program for International Student Assessment (PISA) data about
America's rankings compared to other countries and the strong
correlation within the United States about educational attainment and
life earnings. Here are a couple of the statistics that are of most
concern to us.
    According to the Lumina Foundation (2012), only 39.3 percent of
Americans between the ages of 25 and 64 held an Associate's degree or
higher in 2010. In New Mexico, that number is 33.1 percent, which
places us in the bottom 10 States in the country. As you know, New
Mexico is known for its beauty, culture, and chile. New Mexico is also
home to ``big science'' with the Very Large Array, Los Alamos National
Laboratory, Sandia National Laboratories, and Spaceport America. In
2010, New Mexico ranked 15th in the county in the number of individuals
in science and engineering occupations as a percentage of the workforce
(National Science Board, 2012). We know that the future belongs to the
communities, States, and countries that have an educated population,
the natural resources, the quality of life and the entrepreneurial
spirit to take advantage of what is to come. We know that New Mexico
must do a better job of educating all of its citizens, or our State and
our children will continue to be left behind.
    2. America's schools work better for some students than for others.
I have had the privilege of working with inspirational teachers and
principals over my 35 years in education. I have visited some
outstanding schools across the country and in New Mexico. Moreover,
America has some of the best higher education institutions in the
world. In a recent international ranking, 44 American universities were
ranked among the top 100 universities in the world (Times Higher
Education, 2011-12). It is clear that the students who are fortunate
enough to attend the good schools and graduate from the great
universities are well-prepared for the future.
    But equally clearly, we face enormous achievement gaps among
children of different racial, ethnic, and socio-cultural backgrounds.
In New Mexico, for example, 15 percent of Native American fourth
graders, 19 percent of African-American fourth graders, and 23 percent
of Hispanic fourth graders were proficient or above in math compared to
48 percent of White fourth graders on the 2011 National Assessment of
Education Progress (NAEP, 2011). The achievement gap among Native
American, African-American, Hispanic, and White students is evident at
every level of the education system. That same gap is evident when one
looks at health, economic vitality or any other measure of social well-
being.
    Our challenge is as obvious as it is difficult. How do we
strengthen our system of education so that it enables more of our
students to fully develop their potential? If human capital is the most
important resource for a more prosperous future, then we believe we
must recognize the achievement gap crisis for what it truly is--a
national emergency that requires our urgent attention.
    3. The American dream of education is in danger of dying. Americans
have always believed that education was the path to increased equality
and a brighter future. Unfortunately, current data indicate that the
gap between rich and poor students is widening, and this country is in
danger of losing its heritage of using education as the path for upward
social mobility. Recent scholarship by Dr. Greg Duncan and Dr. Richard
Murnane (2011) and many other researchers have sounded the alarm
clearly.
    Dr. Murnane's testimony to this committee last month stressed how
changes in the economy have altered the demands for skills in the
workplace, how the education gap between high-income families and low-
income families is increasing, and that meeting the challenge of
preparing all students to be college- and career-ready cannot be met by
simply pushing teachers to work harder.
    We want to expand on Dr. Murnane's last point. Although we are
talking about education, we want to stress that schools, by themselves,
cannot address all of the challenges that children face. We must
strengthen the systems of support--the social and health safety nets--
that help children, families, and communities overcome the brutal
inequalities that keep too many of our children from succeeding in
school. Our research in New Mexico has revealed that far too many
students are truant; use drugs, tobacco and alcohol; face violence;
have unprotected sex; and engage in other risky behaviors. In addition,
too few students are engaged in afterschool activities; have
relationships with caring adults; or benefit from other sources of
resiliency (UNM Center for Education Policy Research, 2012). For
example, 21 of New Mexico's school districts had between 30 percent and
60 percent of their high school students classified as habitually
truant, which is defined as students with 10 or more unexcused absences
(New Mexico Public Education Department, 2009-10). We are deeply
concerned that we are losing another generation of children and youth
who will, in turn, become the parents of another lost generation, and
that this cycle will continue.
    Accelerated learning is important because we believe that these
approaches can make schools more flexible and responsive to student
needs, increase the rigor of the curriculum, raise student aspirations,
and enhance the collaboration between high schools and colleges. We
believe these critical changes must occur if America is to be globally
competitive, if the achievement gap is to be addressed, and if
education is to be the path to a better future. So how are our hopes
for accelerated learning working out? We turn to that question next.
              what do we know about accelerated learning?
    Accelerated learning covers a number of approaches including
Advanced Placement, International Baccalaureate Programs, dual credit,
concurrent enrollment, early college high schools, and others. Table 1
provides brief definitions of four of the main approaches from the
recent literature (e.g., Waits, Setzer, and Lewis, 2005; Western
InterState Commission for Higher Education, 2006; Lowe, 2010).

     Table 1.--Definitions of Selected Accelerated Learning Programs
------------------------------------------------------------------------
                 Approach                            Definition
------------------------------------------------------------------------
Advanced Placement........................  Courses that follow the
                                             content and curricular
                                             goals as developed and
                                             published by the College
                                             Board.
International Baccalaureate...............  Courses that compose a 2-
                                             year liberal arts
                                             curriculum that leads to a
                                             diploma and meets the
                                             requirements established by
                                             the International
                                             Baccalaureate Program.
Dual Credit/Concurrent Enrollment.........  Courses in which high school
                                             students enroll in college
                                             classes. In many cases,
                                             students receive both high
                                             school and college credit
                                             for college classes
                                             successfully completed.
                                             Dual credit/concurrent
                                             enrollment courses can be
                                             taught by high school and/
                                             or college/university
                                             instructors and can occur
                                             on the high school campus,
                                             on the college/university
                                             campus, or via distance
                                             education.
Early College High Schools................  High schools that offer
                                             students the opportunity to
                                             earn substantial amounts of
                                             post-secondary credit while
                                             still in high school in
                                             order to allow students to
                                             graduate with a high school
                                             diploma and an associate's
                                             degree in 4 or 5 years,
                                             instead of six. Early
                                             college high schools often
                                             focus on at-risk students
                                             by emphasizing real-world
                                             learning, relevance and
                                             relationships in a small
                                             setting.
------------------------------------------------------------------------

    For the purpose of this testimony, we will focus on New Mexico's
experience with a statewide dual credit initiative. We focus on dual
credit because it is an important topic in New Mexico's policy
discussions and we have been conducting a year-long study on this
reform. In addition, several of my fellow panel members will address
Advanced Placement.
    We believe that New Mexico's experience with dual credit is
important for a number of reasons, including the fact that New Mexico
looks now like what the United States will look like in the future. We
are a multicultural, ``majority-minority'' State; we have communities
of extreme wealth and of extreme poverty; we are both urban and rural;
our future depends on a workforce able to fill jobs in science,
technology, engineering, and mathematics; and we share an international
border. In addition, New Mexico is at the very bottom of most measures
of educational achievement and attainment. So, to paraphrase Frank
Sinatra, ``If dual credit can make it here, it can make it anywhere.''
    New Mexico's Dual Credit Program. In 2007 and 2008, New Mexico
passed legislation aimed at increasing the rigor of high school. The
State's high school redesign efforts included a number of changes but
most pertinent to this testimony is that the number of units required
for high school graduation increased to 24 units from 23 units. In
particular, students are now required to take four units of math rather
than three units, and one of those math units must be Algebra 2 or
higher. In addition, the high school redesign required that--beginning
with the 2009-10 school year--at least one of those 24 units must be an
honors, Advanced Placement, dual credit, or distance learning class.
    In 2007, New Mexico also passed legislation establishing the
statutory requirements for a ``dual credit program,'' which allowed
high school students to enroll in college-level courses that may be
academic or career-technical, but not remedial or developmental, in
order to earn credit toward a high school diploma and a post-secondary
degree or certificate. In 2008, New Mexico passed legislation to
include additional schools in the dual credit program, including the
New Mexico School for the Blind, New Mexico School for the Deaf, and
the New Mexico Military Institute. And in 2010, New Mexico passed
legislation adding tribal colleges and Bureau of Indian Education (BIE)
schools to the dual credit program. In addition, the legislation passed
in 2010 allowed high school core classes to be included in dual credit
programs, and it restricted physical education activity courses.
    The theory of change underlying the high school redesign and dual
credit reforms is that accelerated learning approaches, including dual
credit, are an effective way for New Mexico's high school students,
particularly minority students and students in high poverty or rural
areas, to gain access to higher education. More specifically, New
Mexico's policymakers are counting on dual credit programs to enable
students to earn credit at both high school and college simultaneously
and to obtain an early glimpse of college life. This is essential in
New Mexico where the aspirations of and expectations for too many of
our students are low.
    In addition, New Mexico policymakers hope that dual credit programs
would encourage more students from underrepresented groups to consider
higher education; result in better completion rates for both high
school and college; reduce the need for remediation; create a shorter
route to a high school diploma or college degree; reduce the cost of
higher education; provide an alternative for students tempted to leave
high school and enter the workforce; and, when offered through distance
education, provide equitable access to higher education opportunities
for rural students.
    The increase in graduation units, as well as the requirement that
students take one of their units in an honors, Advanced Placement, dual
credit, or distance learning class, took effect for the freshmen who
entered high school in the 2009-10 school year, scheduled to graduate
next year as the class of 2013. Although this reform is in the early
stages of implementation, we have already learned a number of lessons.
    Lessons Learned. The University of New Mexico Center for Education
Policy Research (CEPR) has been working with the New Mexico Legislative
Finance Committee (LFC), The New Mexico Legislative Education Study
Committee (LESC), Albuquerque Public Schools (APS), Central New Mexico
Community College (CNM), the University of New Mexico (UNM), Las Cruces
Public Schools (LCPS), Dona Ana Community College (DACC), New Mexico
State University (NMSU), The Bridge of Southern New Mexico, and a
number of other partners to study the impact of dual credit on student
success.
    Although the official New Mexico dual credit program is relatively
new, students have been participating in dual and concurrent enrollment
programs at New Mexico colleges for more than a decade. The data
contained in our analyses include the results of both State-sponsored
dual credit, as well as other dual and concurrent enrollment programs
taking place prior to the 2007-8 school year. Thus, our analyses of
student performance and program effects are based on the multiple data
sets available to us. What follows are some lessons learned from our
analyses of approximately 20,000 high school seniors, 6,000 community
college students, and 6,000 university students.

    Lesson 1: Dual credit programs appear to be an effective approach
to large-scale implementation of accelerated learning. This is
important because some of the difficult challenges we face include
ensuring that large numbers of minority, high-poverty, and rural
students have the opportunity to participate in accelerated learning
programs.

    1. Dual credit enrollment has increased over time, both in numbers
of students who are participating and in number of courses that are
offered. In academic year 2010-11, 12,263 New Mexico students
participated in dual credit programs, taking a total of 27,751 courses
(see Figure 1). These figures represent 12.4 percent of all New Mexico
public high school students, and approximately 3.5 percent of all
courses offered at public high schools. Currently, the overwhelming
majority of dual credit course takers are juniors and seniors. Unlike
the current senior class, the current cohort of juniors will be the
first class to graduate under the more rigorous New Mexico graduation
requirements. Consequently, as more students begin to come under the
new requirements, we expect substantial growth in dual credit
enrollments over the next few years.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    2. New Mexico's Dual Credit program provides access to students
across the State, in both urban and rural settings. As a part of the
program, each New Mexico community college is assigned a geographic
area of responsibility, ensuring that every school district in the
State has a partnership with a community college to offer dual credit
courses. Additionally, colleges have implemented a variety of delivery
methods (courses taught at a high school, online or distance learning,
etc.) to further accommodate high school students where distance to a
college is a potential barrier to access. As the following map
illustrates, there are community colleges and universities across the
State offering dual credit courses, with substantial enrollments at
many colleges in rural New Mexico (Figure 2).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    3. Dual credit has high levels of participation from minority
students, but they are still underrepresented in the programs compared
to overall State public school enrollments. Figure 3 reveals that 42.5
percent of New Mexico dual credit students are Hispanic. However, this
is below the level of overall enrollment in public schools statewide.
This underrepresentation is also true of American Indian students and
Black students. One challenge to this analysis is that ethnicity is
self-reported and not mandatory at the college level, resulting in
nearly 10 percent of dual credit course takers categorized as ``no
response.''
    A promising trend is that Hispanic student participation in dual
credit is growing each year (see Figure 4), and growth in 2010-11 may
reduce the level of underrepresentation. However, participation among
Black students is stagnant, and American Indian student participation
declined in 2010-11.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Lesson 2: Dual credit appears to be associated with improved
student performance in terms of increased high school graduation rates,
increased college attendance, decreased need for remediation in
college, increased persistence from semester to semester in college,
increased college graduation rates, and decreased time to completion
and graduation in college. Given the complexity of the student pipeline
from high school through college, it is difficult for any one measure
to completely capture student performance. Recognizing this, we looked
at student performance at several different institutions and through
several different lenses. It is encouraging that, in all cases,
students who took dual credit courses showed higher levels of student
performance. It is too early in our research to draw causal
connections, but the initial results are promising.

    1. Dual credit is associated with increased high school completion.
An analysis of 5,223 11th graders at Albuquerque Public Schools showed
that those who took at least one dual credit course graduated from high
school at much higher rates. Of 11th graders in the class of 2011, 96.2
percent of those who took a dual credit course graduated from high
school, compared to 74.9 percent of 11th graders who did not take a
dual credit course (see Figure 5). The data presented in Table 2 reveal
that those 11th graders who participated in a Free or Reduced Lunch
Program and took a dual credit course graduated from high school at
much higher rates than Free or Reduced Lunch participants that did not
take a dual credit course. This is important because it shows the
potential benefit of dual credit programs for low-income students.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Table 2.--Completion rates are defined as the percentage of students enrolled at the beginning of their 11th
                  grade year who graduated from high school. Source: Albuquerque Public Schools
----------------------------------------------------------------------------------------------------------------
                              Albuquerque public schools dual credit completion rates
-----------------------------------------------------------------------------------------------------------------
                                          Took a dual credit      Did not take a dual
                                                course               credit course                Total
----------------------------------------------------------------------------------------------------------------
Participated in a Free/Reduced Lunch   86.8 percent...........  44.6 percent...........  47.5 percent
 Program.                                (N=91)...............    (N=1,227)............    (N=1,318)
Did Not Participate in a Free/Reduced  98.2 percent...........  85.6 percent...........  87.0 percent
 Lunch Program.                          (N=442)..............    (N=3,463)............    (N=3,905)
                                      --------------------------------------------------------------------------
  Total..............................  96.2 percent...........  74.9 percent...........  77.0 percent
                                         (N=533)..............    (N=4,690)............    (N=5,223)
----------------------------------------------------------------------------------------------------------------

    2. Dual credit is associated with increased college attendance.
Students who participated in New Mexico's dual credit program in their
senior year attended college at much higher rates than their peers.
Among the class of 2009, 4,524 students took a dual credit course
during their senior year of high school, and 67 percent of these dual
credit course takers enrolled in college in Fall 2009. That is
significantly higher than New Mexico's typical college-going rate of
approximately 50 percent (Winograd, Florez, and Garcia, 2010). We have
been conducting surveys and interviews with dual credit program
administrators, advisors, and other college and high school personnel
and they believe that one of the most important benefits of dual credit
programs is that they allow students who never viewed college as an
option to realize that they can succeed in a college course.
    3. Dual credit is associated with a reduced need for remediation.
This is important because students who do not take remedial courses
graduate from college at significantly higher rates than their remedial
course-taking peers (Winograd, Florez, and Garcia, 2010). Our research
indicates that 35 percent of the students who participated in dual
credit took remedial courses at a New Mexico college, a percentage far
lower than the State average of 47.1 percent (ibid). Figure 6 shows the
percentage of students who took at least one remedial course from Fall
2009 to Fall 2010 at Central New Mexico Community College, Dona Ana
Community College, New Mexico State University, and the University of
New Mexico. At each institution, the remediation rates are lower for
students who participated in dual credit programs while in high school.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    4. Dual credit is associated with increased persistence and
progress toward degrees. Students who participated in dual and
concurrent enrollment programs show higher rates of persistence from
semester to semester, as well as increased progress toward degrees.
Figure 7 and Figure 8 show the results of an analysis of over 6,000
University of New Mexico students from the freshman classes of 2007 and
2008. Students who took dual credit courses persisted to their
sophomore, junior, and senior years at higher rates than their peers.
Also, students who took dual credit courses earned college credits at a
faster rate than their peers. In addition to these findings, an
analysis of approximately 2,700 students at Central New Mexico
Community College, Dona Ana Community College, and New Mexico State
University showed that students who took a dual credit course in high
school had higher rates of persistence to their sophomore year than
non-dual credit taking students (see Figure 9).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    5. Dual Credit is associated with higher college graduation rates.
Students who took dual credit courses during high school realized
higher graduation rates than their peers. An analysis of the University
of New Mexico incoming freshman class of 2005 shows that dual credit
students had a graduation rate nearly 5 percent higher than those who
did not take dual credit (see Figure 10).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    6. Dual Credit is associated with faster time to completion. Of the
students who graduate with a certificate or degree, those who
participated in dual credit programs during high school graduated at
faster rates and took fewer courses than their peers. An analysis of
Central NM Community College and University of New Mexico graduates
shows a substantial reduction in time to graduation for dual credit
students (see Figure 11)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Lesson 3: The content and delivery of dual credit programs needs to
be refined to ensure consistency and rigor across a large statewide
program. In addition, the program needs to be carefully monitored in
order to ensure that it is meeting the State's goals of improving
students' success effectively and efficiently.

    1. A challenge for dual credit programs is ensuring consistency in
rigor and curriculum across a variety of delivery methods. Annually,
about 40 percent of New Mexico dual credit courses are offered on high
school campuses. In most cases, these courses are taught by high school
faculty, with oversight or approval from college academic departments.
Some policymakers are concerned that courses offered at high schools do
not provide the same benefit and are perhaps less rigorous than courses
taught on a college campus. For example, an analysis of New Mexico dual
credit courses shows that students taking courses taught at a high
school earn higher grades than those taking courses taught at a college
(see Figure 12). This variation in GPA raises concerns among
policymakers that these high school-located courses may be less
rigorous than their counterparts offered at college campuses. It is
important to note, however, that New Mexico is an extraordinarily rural
State. Transporting high school students over long distances to college
locations is simply not feasible.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    2. New Mexico has one of the most generous dual credit programs in
the Nation, designed to promote access for any interested high school
student. New Mexico's statewide program requires that colleges waive
student tuition and fees, and that public school districts provide
funding for books and instructional materials. The result is a
statewide program with minimal, if any, financial barriers to entry for
students. The State also provides full funding to both the high school
and college for the dual credit course, independent of the course
location or delivery method. The rapid growth in participation in dual
credit has created concern among policymakers that some higher
education institutions are taking advantage of the program, essentially
receiving State funding for courses which they expend little or no
effort to deliver (a college course taught at a high school campus by a
high school faculty member, for example).
    3. A number of policymakers are concerned that student enrollment
in dual credit programs will grow and the costs of the program will
rise. We estimate that New Mexico currently spends approximately $33
million on dual credit programs, including instructional materials.
Recall that currently about 11 percent of high school students are
enrolled in dual credit courses and that approximately 3.3 percent of
high school courses offered are dual credit courses. If the program
proves to be successful and becomes more widespread, the costs will
increase as well. New Mexico is currently wrestling with how to think
about balancing the immediate costs of the dual credit program with its
potential long-term benefits and how to best structure the funding
mechanisms to support program growth efficiently.
    4. Finally, there is persistent skepticism by policymakers that the
gains in student performance as a result of dual credit programs are
misleading and overstated. Most of the current performance data on New
Mexico dual credit students is from prior to the complete
implementation of the New Mexico High School Redesign (first graduating
class with new requirements will be in Spring 2013). As a result, some
argue that the students who ``self-selected'' to participate in dual
credit programs were already more likely to attend and succeed in
college, and their increased performance is not in fact a result of
taking dual credit courses. This is an important question and one that
must be answered by future research.

    Lesson 4: High schools and higher education institutions can, in
fact, work together. This is no small feat. New Mexico has a number of
promising partnerships that can teach us much about how high schools,
higher education institutions, and the community can work together for
the benefit of the students. Here are some of those promising
partnerships:

    1. In 2008, Superintendent Winston Brooks, President Katharine
Winograd, and President David Schmidly established a partnership among
Albuquerque Public Schools (APS), Central New Mexico Community College
(CNM), and the University of New Mexico (UNM). This partnership has
doubled the number of APS students taking dual credit courses at CNM
and doubled the numbers of students who transfer from CNM to UNM. Most
importantly for us, this collaboration enabled us to get the data
needed to assess the impact of dual credit for these three
institutions.
    2. In 2011, the University of New Mexico was awarded a ``Latino
Student Success'' grant from the Lumina Foundation for Education, 1 of
only 12 such awards in the Nation. The grant is a collaboration between
UNM, APS, CNM, and a number of Albuquerque-based community
organizations. Using the principles of ``collective impact,'' these
organizations are developing a community-wide plan to ensure that more
Albuquerque Hispanic youth graduate with post-secondary degrees and
certificates. Because of the low educational attainment rates in
Albuquerque among Hispanics, the plan requires a three-pronged strategy
of ensuring that more Hispanic students graduate from high school,
finding ways to get more Hispanic students into the college pipeline,
and ensuring that students are retained and graduate at higher levels
once they enroll in a community college or university.
    3. In 2010, Las Cruces Public Schools, Dona Ana Community College,
New Mexico State University, and a public-private partnership called
The Bridge of Southern New Mexico opened Arrowhead Park Early College
High School. The impetus for this collaborative effort was the
community's concerns regarding dropout rates, workforce adequacy, and
the future of Southern New Mexico. The school relies heavily on dual
credit classes and is aimed at helping students progress quickly along
career pathways in science, technology, engineering and math (STEM)
fields. The school opened in Fall 2010 and in the next year, all 112
students went on to 10th grade. Discussions are currently underway for
more Early College High Schools in the Las Cruces, Gadsden, and Hatch
districts.
    Again, most importantly for us, this collaboration enabled us to
get the data needed to assess the impact of dual credit for students in
the southern part of the State.

    Lesson 5: Dual Credit programs and other accelerated learning
programs must overcome a number of fundamental issues if they are to
make a permanent difference for large numbers of students. These issues
include:

    1. Collaboration. Collaboration between the K-12 public schools and
higher education institutions is a much more difficult challenge than
it appears. The alignment of high school graduation standards and
college admission standards, articulation agreements about which
courses will count for what kinds of credit, concerns about college
reputations and status, concerns about younger high school students
attending college campuses with older students, regulations about which
colleges can offer dual credit in which geographic regions of the
State, and the practice of blaming public schools for the poor
performance of students in higher education are some of the issues
potential partners must resolve if they are going to work together.
    2. Funding. Most current funding mechanisms rely heavily on student
enrollments and thus pit high schools and colleges against one another
in terms of who gets the credit for dual credit students. These same
funding mechanisms can pit high schools, community colleges,
universities and families against one another because it may be less
expensive to take some courses as dual credit rather than waiting until
the student has graduated from high school and is attending the
university. In addition, in these tight budget times, some legislators
and educators are concerned about ``double-funding'' programs, in that
both high schools and colleges would get funding credit for the same
students. Finally, it is important to consider how the costs of
transportation, technology, and instructional materials will be covered
when public schools, colleges, and families are struggling to make ends
meet.
    3. Quality and Accountability. High schools and higher education
institutions often bicker about which courses can be taught at what
locations and by whom and they use the issue of quality to mask a wide
range of concerns. In addition, it is very difficult to get the data
needed to assess the impact of these programs. A number of States have
developed effective strategies for overseeing dual credit programs,
including collaborative approaches to program approval, periodic
program reviews, student outcome analyses, regular collegial meetings,
course approvals, periodic reviews of district/college agreements, and
annual reporting (Lowe, 2010). We think these are promising strategies
that should be expanded.
    4. The Value of a College Degree. Some of the most interesting
debates about dual credit programs come from the differences in
people's deeply held beliefs about the purposes of high school and
college. Although most of the New Mexicans we work with agree that all
students should graduate from high school, there is less agreement that
all students should go to college. The national debates about the
current value of a college education show that this difference of
opinion is nationwide. In addition, we often encounter the higher
education perspective that stricter admission requirements and high
rates of applicant rejection are the hallmarks of a better university.
We don't think that everybody needs a 4-year college education, but we
also don't think that the staggering disparities in educational
attainment related to race, ethnicity, and socio-economic status should
go unchallenged.

    Lesson 6: We need to ensure equity and accessibility of accelerated
learning programs to all students. One of the most disheartening
findings to come out of our research is that dual credit, Advanced
Placement, and International Baccalaureate programs come too late for
too many minority and high poverty students. We lose too many children
to poor health care and lack of developmental support in the 4 or 5
years before they get to school, and we continue to lose them in
elementary and middle schools. Even the most effective accelerated
learning programs are limited to the students who make it through the
system to high school and are prepared enough to take advantage of
these more rigorous learning opportunities.
    We know that America's future depends on the success of all of its
students, yet we face incredible challenges when it comes to ensuring
that all students have access to a rigorous curriculum that prepares
them for both college and career. The recently released Office of Civil
Rights Data Collection (CRDC) reveals heart-wrenching statistics about
the state of educational opportunity in our Nation and the tremendous
work left to be done. In 2009, for example, 55 percent of high schools
with lower enrollments of African-American and Hispanic students
offered calculus; compared to only 29 percent of high schools serving
mostly African-American and Hispanic students. Additionally, African-
American students were three times as likely, and Hispanic students
twice as likely, as White students to be retained in all grades. The
CRDC data also reveal that African-American and Hispanic students
represented more than 70 percent of all students involved in school-
related arrests or referrals to law enforcement (U.S. Department of
Education 2012a).
    The conversations about accelerated learning programs must take
place in the larger context of educational opportunity and we need to
continuously ensure that these programs are accessible to all of our
students. For example, for three of the largest school districts in New
Mexico, the CRDC data reveal that in 2009 Hispanics in Albuquerque
Public Schools made up 58.7 percent of the 90,375 students in the
district, but only 38.5 percent of students taking at least one AP
course. Likewise, Hispanics in Las Cruces Public Schools made up 71.9
percent of the 24,970 students, but comprised only 44.2 percent of
students taking at least one AP course. Finally, in Santa Fe Public
Schools, Hispanics made up 76.8 percent of the 12,550 students, yet
only 43.8 percent of students taking at least one AP course.
    The evidence is growing that students who enroll in accelerated
learning benefit from improved high school graduation rates, increased
college enrollment, and higher college graduation rates. As this
committee continues to examine accelerated learning programs across the
Nation, we encourage you to emphasize the importance of ensuring Dual
Credit, Advanced Placement, and International Baccalaureate programs
are equitably funded and accessible to all students. Secretary of
Education Arne Duncan clearly articulated that,

          ``[t]he power of the data [CRDC] is not only in the numbers
        themselves, but in the impact it can have when married with the
        courage and the will to change. The undeniable truth is that
        the everyday educational experience for many students of color
        violates the principle of equity at the heart of the American
        promise. It is our collective duty to change that''--(U.S.
        Department of Education 2012b).
                       where do we go from here?
    We want to offer four key recommendations that we believe will help
promote accelerated learning. These include:

    1. Help focus attention on the positive results of dual credit,
Advanced Placement, and other approaches to accelerated learning. We
can learn much from these attempts to make the education system more
flexible and responsive to the needs of all of our students. We would
argue that there is widespread agreement that the silos surrounding
early childhood programs, K-12 education, higher education, and
workforce development need to come down. Successful accelerated
learning programs can teach us much about how different parts of the
education system can work together.
    2. Keep the vision of a highly educated America alive. We cannot
overstate the importance of statesmen and stateswomen articulating what
America should be. This country is founded on the belief that all men
and all women, regardless of color or creed, are created equal. Our
history is a story of struggling to make that promise hold true for all
of our citizens and that struggle continues today. Your steadfast
advocacy for education in general, and the importance of accelerated
learning in particular, is crucial to the future of so many of our
children. We quoted Frank Sinatra earlier so we can quote Abraham
Lincoln now: ``A house divided against itself cannot stand.'' We have
overwhelming evidence that our current education system is becoming
more a source of division rather than a force for the common good.
Accelerated learning is an important attempt to make the American dream
of a good education a reality for more of our students. Thank you for
your efforts so far but the fight is far from over.
    3. Use all of your policy levers to get the adults in different
parts of the education system to work together for the benefit of the
students. In recent years, we have seen a number of influential grants
from the Department of Education including Race To The Top; Race To The
Top Early Learning Challenge Grant; the statewide Longitudinal Data
Systems; as well as from the Department of Labor including the Trade
Adjustment Assistance Community College and Career Training Program
(TAACCCT). We know that several education bills have been and are being
considered by Congress, including the reauthorization of the Elementary
and Secondary Education Act (ESEA). We understand that the issues are
complex but we would urge you to make sure that there are funds to
support dual credit, Advanced Placement, early college high schools,
International Baccalaureate programs and other forms of accelerated
learning in any legislation that is passed. In addition to funding,
please consider ways to incentivize collaboration between high schools
and higher education institutions. Finally, please include
accountability systems with real teeth that focus both on ways to
ensuring rigor within accelerated learning programs, and on careful
analyses of student outcomes from those programs.
    4. Continue the Federal pressure for States, school systems, and
higher education systems to gather and share data that can be used to
determine the impact of our efforts. We clearly need to pay attention
to privacy issues, and I believe we have good safeguards in place to do
just that. But it is obvious that we struggle to understand which of
our education efforts are helpful and which are a waste of
irreplaceable human capital. Despite important legislation like the
America COMPETES Act; Federal requirements in the American Recovery and
Reinvestment Act; the requirements in the Race To The Top Grants; other
Federal grants and strong advocacy by organizations like the Data
Quality Campaign, too many State agencies, school districts, and higher
education institutions are unable or unwilling to use data to inform
our policy debates.
    Our call for better data is not just an esoteric request from a
group of researchers. We cannot tell if accelerated learning programs
are accessible, high quality, and making a difference for the students
who need them the most. We need data that lets us understand whether
accelerated learning makes a difference in terms of graduation, college
enrollment and completion, time to graduation, and economic impact. We
need data that gives us guidance on how to scale up these efforts so
they make a difference for more students. In summary, we need data to
help us understand if we are really addressing the challenges that face
our country.

    We began our testimony by talking about the challenges that the
United States faces in terms of global competiveness, the achievement
gap, and education as the pathway to the American Dream. We do believe
that accelerated learning can help us face those challenges, but much
more needs to be done to ensure that our educational system is as
strong as it can be. We deeply appreciate the commitment of this
committee to the welfare of our children and our future.
                               References
Duncan, Greg J. and Richard J. Murnane. (2011.) Whither Opportunity?
    Rising Inequality, Schools, and Children's Life Chances. New York:
    Russell Sage Foundation.
Lowe. A. (2010). Promoting Quality: State Strategies For Overseeing
    Dual Enrollment Programs. National Alliance of Concurrent
    Enrollment Partnerships, Inc. Retrieved April 7, 2012, from http://
    nacep.org/wp-content/uploads/2010/10/
    NACEP_Promoting_Quality_Report_2010.pdf.
Lumina Foundation. (2012). A Stronger Nation Through Higher Education.
    Retrieved April 7, 2012, from http://www.luminafoundation.org/
    states_landing/a_stronger_nation_through_education/.
The National Assessment of Educational Progress (NAEP). (2001).
    Retrieved April 7, 2012, from http://nces.ed.gov/pubsearch/
    pubsinfo.asp?pubid=2012459.
National Science Board. (2012). Science and Engineering Indicators
    2012. Arlington, CA: National Science Foundation (NSB 12-01).
    Retrieved April 7, 2012, from http://www.nsf.gov/statistics/
    seind12/c0/c0i.htm.
New Mexico Public Education Department. (2009-10). Habitually Truant
    School Type Report. Retrieved April 7, 2012, from http://
    ped.state.nm.us/IT/fs/truancy/
    SY2010%20Habitual%20Truancy%20by%20School%20Type.pdf.
Times Higher Education. (2011-12). World University Rankings. Retrieved
    April 7, 2012, from http://www.timeshighereducation.co.uk/world-
    university-rankings/2011-2012/reputation-rankings.html.
University of New Mexico Center for Education Policy Research. (2012).
    New Mexico's Hispanic Students: Their Future is Our Future.
    Presentation to the New Mexico Hispanic Education Advisory Council.
    http://cepr.unm.edu/news/25/15/Presentation-to-the-NM-Hispanic-
    Education-Advisory-Council.html.
U.S. Department of Education. (2012a). The Transformed Civil Rights
    Data Collection. Office of Civil Rights. Retrieved April 7, 2012,
    from http://www2.ed.gov/about/offices/list/ocr/docs/crdc-2012-data-
    summary.pdf.
U.S. Department of Education. (2012b). New Data from U.S. Department of
    Education Highlights Educational Inequities Around Teacher
    Experience, Discipline and High School Rigor. Retrieved April 7,
    2012, from http://www.ed.gov/news/press-releases/new-data-us-
    department-education-highlights-educational-inequities-around-
    teache.
Waits, T., Setzer, J.C., and Lewis, L. (2005). Dual Credit and Exam-
    Based Courses in U.S. Public High Schools: 2002-3 (NCES 2005-009).
    U.S. Department of Education. Washington, DC: National Center for
    Education Statistics.
Western Interstate Commission for Higher Education (WICHE). (2006).
    Accelerated Learning Options: Moving the Needle on Access and
    Success. Retrieved April 7, 2012, from http://www.wiche.edu/pub/
    12758.
Winograd, P., Florez, V., & Garcia, V. (2010). Ready for College 2010:
    An Annual Report On New Mexico High School Graduates Who Take
    Remedial Classes In New Mexico Colleges And Universities. Retrieved
    April 7, 2012, from http://www.ped.state.nm.us/press/2010/
    Ready%20For%20College%202010.pdf.

    Senator Bingaman. Thank you very much.
    Miss Schubert, go right ahead.

STATEMENT OF MARYBETH SCHUBERT, EXECUTIVE DIRECTOR, NEW MEXICO
           ADVANCED PROGRAMS INITIATIVE, SANTA FE, NM

    Ms. Schubert. Good morning, Mr. Chairman, Senators.
    I actually am going to reiterate from a slightly different
perspective much of what you have heard Mr. Rudin and Miss
Bacon talk about already. So I am going to be very brief.
    What they are talking about, at the highest possible
level--Mr. Rudin is talking about millions of AP exams, and
Miss Dickson is talking about very deep, large scale work that
has been done in Texas. I am going to talk to you from a very
micro perspective, really almost from the student and the
teacher perspective.
    I run a very small, brand new educational foundation in New
Mexico. We have to thank Senator Bingaman for being the thought
leader behind this organization because New Mexico has not, in
the past, had a statewide educational foundation that could
work independently from the outside with best practice
solutions for public school districts. That is our purpose.
    In order to be brief and to kind of keep the committee on
track, I am just going to go through these remarks and try to
make a couple of points about how we are investing in advanced
placement and why.
    The Advanced Programs Initiative is New Mexico's statewide
educational foundation. Our mission is to work hand in hand
with public school leaders on proven strategies for raising
student achievement. In just less than 2 years of operation, we
are already working with districts that represent more than
half of all students in New Mexico.
    One of the solutions that API is promoting in the district
is the Advanced Placement program. AP provides evidence of how
to prepare teachers to teach advanced curriculum to all
students which, in today's world, is what all teachers much do.
    Fifty years ahead of its time, AP established a demanding
set of national requirements for teaching and learning in its
courses. These principles are the same ones that we now know
matter most to student achievement and that, as a result, are
at the heart of the Common Core State Standards that are now
being adopted for virtually all public school students in the
United States.
    AP curriculum forces students to reason, argue, write, show
evidence. This academic intensity in the curriculum is
particularly necessary for minority students and at the heart
of college readiness.
    Second, high quality professional development has been a
hallmark of advanced placement. Teacher effectiveness is
considered to be the single most important factor in student
learning.
    And finally, AP assessments--and this is really a critical
factor, frankly, and we could talk about this a little bit more
in the question period if you have questions--AP assessments
are very different from the kinds of standards-based assessment
that students typically see in States all throughout the
country. They require much more writing. They require much more
reasoning and evidence, and they are nationally developed and
they are nationally scored.
    In this sense, these assessments are also closely aligned
with the curriculum, which is kind of a nuanced distinction
maybe for you as lawmakers, but what that means is that the
students are, in fact, tested on the material that they have
had in the course. They have to demonstrate that they
understand what they have learned. And these are the kinds of
assessments we are going to see in the Common Core State
Standards.
    AP's value is backed up by the numbers. We have heard this
already from your prior panelists. Students who participate in
AP are significantly more likely to succeed in college and
there are lots of studies to show that, that we can talk to you
about.
    The API AP Fellows Competitive Grant Program is intervening
in the areas that research shows will have the largest impact:
teacher professionalism, teacher leadership, and teacher time
with students. We are committed to creating great AP teachers
who can succeed with diverse groups of students.
    Teachers in our program receive professional development,
extra time with their students, and support from experts. We
select fellows from the disciplines of math, science, and
English who are teaching critical college and life skills. We
offer fellows the opportunity to become master teachers and
mentor other teachers. And finally, we look for teachers and
school leaders who share our values and vigorously strengthen
school culture and expectations for achievement, especially
among low-income and minority students and families.
    As Mr. Winograd said, New Mexico is one of the first
majority Hispanic States in the United States. Our students
represent the future of the U.S. workforce. In 2011, just seven
States had closed the achievement gap in AP for both Hispanic
and Native American students meaning that the proportion of
students participating in AP match the proportion of minority
students in the general school population. New Mexico is not
one of those States despite the fact that it has the highest
share of Hispanic students in its general school population.
    Since its founding in 2010, API has served 1,268 students
and 25 teachers in three districts. Of these students,
approximately 43 percent were Hispanic, 61 percent of students
in these districts would be considered low income. With our
first-year results in summer 2011, we saw a 36 percent increase
in the number of students passing AP exams, while the State's
overall increase was 7.5 percent. There was a 33 percent
increase in the number of students, enrolled students who took
the national exam, a critical indicator of future success.
    API is a young organization and we must raise all of the
funds that we invest, and that has been a tough hurdle, as you
can imagine, in the height of this recession. So we have
started small, but we are confident that our assumption is
correct: that it is great teachers who have the subject matter
knowledge and teaching skill to teach all students whether in
AP or in the Common Core who will improve academic proficiency
and college readiness among our Nation's underperforming
students.
    The effects of our efforts will be scaled throughout the
teacher corps by the recognition among teacher and district
leaders that the AP standard is the professional standard that
all teachers must meet.
    I do think it is important for all of you to recognize,
those of you who care about educational policy, that we can
scale AP, really, much more broadly than it already has been
done. But to do that, district leaders have to incorporate AP
as a regular part of the high school experience. In New Mexico,
the State has already created a major incentive to do that, by
making AP participation and success a measure of school
accountability.
    There are intervention programs like ours that have an
impact particularly in raising awareness and preparedness of
teachers. But it is really at the district level in
incorporating this level of rigor and this level of teacher
preparation that we are going to have an impact on the general
school population.
    Thank you.
    [The prepared statement of Ms. Schubert follows:]
                Prepared Statement of Marybeth Schubert
    Mr. Chairman, thank you for the invitation to speak with you this
morning.
    Advanced Programs Initiative is New Mexico's statewide educational
foundation. The API mission is to work hand-in-hand with public school
leaders on proven strategies for raising student achievement. We are
collaborating with districts representing more than half of all
students in New Mexico.
    One of the solutions that API is promoting in the districts is the
Advanced Placement program. AP provides evidence of how to prepare
teachers to teach advanced curriculum to all students, which in today's
world is what all teachers must do. Fifty years ahead of its time, AP
established a demanding set of national requirements for teaching and
learning in its courses. Those principles are the same ones that we now
know ``matter most'' to student achievement, and that, as a result,
form the basis of Common Core State Standards being adopted for
virtually all public school students in the United States.

    <bullet> First, AP curriculum forces students to reason, argue,
write, and show evidence. This ``academic intensity'' in the curriculum
is particularly necessary for minority students and at the heart of
college readiness.
    <bullet> Second, high-quality professional development that helps
teachers master course content is a hallmark of AP. Teacher
effectiveness is considered to be the single most important factor in
student learning.
    <bullet> Finally, AP assessments are carefully and closely aligned
with the curriculum, so that students must demonstrate understanding of
a topic, not just memorized facts.

    AP's value is backed up by the numbers. Students who participate in
AP, whether or not they earn a passing score (an AP grade of 3 or
better) on the exam, no matter their income or ethnicity, have a
significantly greater chance of graduating from college than students
who have not taken an AP course. In top performing States, nearly one-
quarter of all students pass an AP exam before graduating from high
school.
    The API AP Fellows competitive grant program is intervening in the
areas that research shows will have the largest impact: teacher
professionalism, teacher leadership and teacher time with students. We
are committed to ``growing up'' great AP teachers who can succeed with
diverse groups of students. Teachers receive professional development,
extra time with their students and support from experts. We select
Fellows from the disciplines of math, science and English, who are
teaching critical college and life skills. We offer Fellows the
opportunity to become master teachers, mentoring other teachers. And,
finally, we look for teachers and school leaders who share our values,
and vigorously strengthen school culture and expectations for
achievement, especially among low-income and minority students and
families.
    New Mexico is one of the first majority-Hispanic States in the
United States. Our students represent the future of the U.S. workforce.
In 2011, just 7 States had ``closed the achievement gap'' in AP for
both Hispanic and Native American students, meaning that the proportion
of minority students participating in AP matched the proportion of
those students in the school population. New Mexico was not one of
those States.
    Since its founding in 2010, API has served 1,268 students and 25
teachers in three districts. Of these students, approximately 43
percent were Hispanic. Sixty one (61) percent of students in these
districts would be considered low-income. With our first-year results
in summer 2011, we saw a 36 percent increase in the number of students
passing AP exams, while the State's overall increase was 7.5 percent.
There was a 33 percent increase in the number of enrolled students who
took the national exam, a critical indicator of student future success.
Results for 2012 will be available in July.
    API is a young organization, and we must raise all the funds that
we invest. So we've started small. But we are confident that our
assumption is correct: that it is great teachers who have the subject-
matter knowledge and teaching skills to teach all students--whether in
AP or in the Common Core--who will improve academic proficiency and
college readiness among our Nation's underperforming students. The
effects of our efforts will be scaled throughout the teacher corps by
the recognition among teacher and district leaders that the AP standard
is the professional standard that all teachers must meet.
                                 ______

    Mr. Chairman, thank you for the invitation to speak with you this
morning.
    The Advanced Programs Initiative is New Mexico's statewide
educational foundation. Our mission is to ensure that all New Mexican
students are prepared with the advanced knowledge and skills they need
to earn high school and college degrees. We reach this goal by working
at the district level, hand-in-hand with public school leaders and
teachers, to promote proven practices that we know work to improve
student achievement.
    Why is the emphasis on completion important? Because diplomas
matter. In today's recession, the unemployment rate for those without a
high-school degree is 12.6 percent, but for those with a bachelor's
degree it is only 4.2 percent.\1\ Among young workers just entering the
workforce, the unemployment rate for those without a high school
diploma is 33 percent.\2\ At the same time, the latest ACT college-
entrance exam data show that only 25 percent of 2011 high school
graduates possessed the competencies in math and English to be
successful in college.\3\
    On almost every measure of expected quality of life from poverty to
academic performance, New Mexico's children fall woefully short. The
following few facts illustrate the scope of the problem:

    <bullet> According to the 2011 National Assessment of Educational
Progress (NAEP), New Mexico's reading and math scores for 4th and 8th
grade students are in the bottom decile of all States.
    <bullet> The 2011 ``Quality Counts'' report ranks New Mexico 50th
in students' ``Chance for Success,'' and 47th in K-12 achievement.

    Although just starting its third year of operation, API already is
collaborating with a dozen public school districts in New Mexico to
implement changes in curriculum, instruction, and assessment. Together
these districts represent more than one-half of all students in the
State.
    One of the solutions that API is promoting in the districts is the
College Board's Advanced Placement program. Advanced Placement,
sponsored since 1955 by the College Board, was designed to make
students more productive in college by exposing them to nationally
developed and nationally sanctioned college-level courses and exams
while still in high school. Since then it has become one of the best,
and best-known, examples of a best-practice instructional program.
    Research has demonstrated the impact of AP. Students who
participate in AP, whether or not they earn a qualifying score (an AP
grade of 3 or better) on the exam, no matter their income or ethnicity,
have a significantly greater chance of graduating from college than
students who have not taken an AP course. This research also tells us
that students who do earn qualifying scores on AP exams are three times
more likely to earn a college degree than students who score below 3 on
the exam.
    The proof of AP's value is not just in the numbers, but in the
design of the program itself, and it is for these reasons that API has
made Advanced Placement teaching and learning a centerpiece of its
investing in New Mexico public schools.
    Half a century ahead of its time, Advanced Placement was
emphasizing the things that we now know are most critical to student
success, and that, as a result, are represented in the new Common Core
curriculum being adopted in our Nation's public schools.
    According to Adelman's seminal research \4\ on student achievement,
``academic intensity'' in the high school curriculum ``matters most''
to students' success in college, and this is particularly true for
minority students. Students who participate in rigorous courses in high
school gain improved confidence, study discipline, and complex
speaking, writing and reasoning skills. These are the same traits we
are now requiring of all U.S. students with the Common Core State
Standards.\5\
    AP provides evidence of how to prepare teachers to teach advanced
curriculum to all students, which in today's world is what all teachers
must do. Like the Common Core, AP emphasizes:

    (1) Teacher excellence in the process of learning as well as
subject-matter expertise, and offers high-quality professional
development to reach that level of mastery;
    (2) Rigorous content and practice standards in the curriculum--
which force students to reason, argue, write, and show evidence and are
tied directly to performance expectations in college;
    (3) Assessments that are carefully and closely aligned with
curriculum and instruction, and that, as a result, require students to
demonstrate understanding of a topic, not just memorized facts.

    Despite the success of Advanced Placement in many States, New
Mexico trails the Nation in the adoption and acceleration of AP
coursework and teachers in its public schools. In high performing
States like Maryland and New York, nearly a quarter of all high school
students pass an Advanced Placement course with an exam grade of 3 or
higher, well enough to qualify for college credit. New Mexico ranks in
the bottom tier of States with 10 percent of high school seniors
scoring a grade 3 or higher on an AP exam, compared to 17 percent for
the Nation. And while the College Board recognizes that New Mexico had
the largest share of any State of Hispanic students who passed AP exams
in 2011, this is at least partly attributable to the fact that New
Mexico has the highest proportion of Hispanic students in its general
school population and fewer exam-takers overall.
    The API AP Fellows competitive grant program is intervening in the
areas that research tells us will have the largest impact: teacher
professionalism, teacher leadership and teacher time with students. We
are committed to ``growing up'' great AP teachers who can succeed with
diverse groups of students.
    The AP Fellows are selected annually in a competitive application
process to ensure that our goals for the program match the teachers'
teaching goals. First, we offer teachers direct classroom support,
providing them professional development, additional time with their
students and mentoring from master teachers for themselves and their
students. They join a learning community of similarly-minded teachers.
And we ensure that the AP exam fee (currently $87 per course) is not a
barrier to student participation by providing additional fee remission
to that already offered in New Mexico with Federal and State funds.
    Second, following the approach pioneered by the Peter O'Donnell
Foundation and used by the National Math and Science Initiative, we
support students in math, science and English disciplines, because we
believe those to be the skill sets most important to life success.
    Third, we offer Fellows the opportunity to become master teachers,
mentoring other teachers and becoming leaders in their districts.
    And, finally, we look for teachers and school and district leaders
who share our values and vigorously promote their efforts to strengthen
school culture and expectations, especially among low-income and
minority students and families.
    New Mexico is one of the first majority-Hispanic States in the
United States. Our students represent the future of the U.S. workforce.
In 2011, 14 States \6\ had ``closed the achievement gap'' in AP for
Hispanic students, meaning that the proportion of minority students
participating in AP matched the proportion of those students in the
school population, and just seven States had eliminated the achievement
gap for both Hispanic and Native American students.\7\ New Mexico was
not among those States.
    The districts in which API has begun its work, Albuquerque,
Farmington, and Santa Fe, are diverse and representative of New Mexico
itself. In Albuquerque public schools, for example, nearly 60 percent
of students are Hispanic, and in our target school, West Mesa High
School, 84 percent of students are Hispanic. In Farmington Municipal
Schools, 30 percent of students are Native American. In Santa Fe Public
Schools, 71 percent of students are low-income. Sixty one (61) percent
of students in our districts would be considered low-income.
    The outcomes of the AP Fellows program are to improve both
participation in AP courses and success on AP exams. In the past 2
academic years, we have served 1,268 students and 25 teachers in three
districts. Of these students, approximately 43 percent were Hispanic.
In 2011 our Native American participation was only about 2.5 percent,
but in 2012 Native American participation was 22 percent.
    With our first-year results in summer 2011, we saw a 36 percent
increase in the number of students passing AP exams, while the State's
overall increase was 7.5 percent. In 2011, there was a 33 percent
increase in the number of enrolled students who took the national
exam--a critical indicator of student future success--and in 2012 more
than 80 percent of students enrolled in our cohort are taking the AP
exam. Results for 2012 will be available in July.
    API is a young organization, and we must raise all the funds that
we invest. So we've started small. But we are confident that our
assumption is correct: that it is great teachers who have the subject-
matter knowledge and teaching skills to teach all students--whether in
AP or in the Common Core--who will improve academic proficiency and
college readiness among our Nation's underperforming students. This is
a conclusion also reached by the authors of the Rising Above the
Gathering Storm \8\ report of the National Academy of Sciences and the
resultant PACE (Protecting America's Competitive Edge) Act, sponsored
by members of this committee.\9\
    If we are to scale-up the known benefits of the Advanced Placement
program in New Mexico and elsewhere, we must expand the number of
certified AP teachers, improve their effectiveness with all types of
students, and make them leaders in the development of other teachers.
The effects of our efforts will be scaled throughout the teacher corps
by the recognition among teacher and district leaders that the AP
standard is the professional standard that all teachers must meet.
                                Endnotes
    1. Bureau of Labor Statistics, March 2012.
    2. Understanding the Economy: Unemployment Among Young Workers,
U.S. Congress Joint Economic Committee, Washington, DC, May 2010.
    3. 2011 Condition of College and Career Readiness, ACT, Iowa City,
IA.
    4. Answers in the toolbox: Academic intensity, attendance patterns,
and bachelor's degree attainment, Clifford Adelman, Washington, DC,
U.S. Department of Education, 1999.
    5. New Mexico and 45 other States have adopted Common Core State
Standards (CCSS) for public schools, establishing new guidelines for
student learning that are internationally competitive. The CCSS
represent a very different approach to teaching, learning, and
assessment--one focusing on fewer but more rigorous standards, and
fostering a deeper understanding of critical concepts and the practical
applications of knowledge. Developed over many years, tested, and
proven to be effective, these new learning standards draw on research
on how students learn and how best to prepare them for college and the
increasingly competitive job market.
    6. States that have eliminated the Achievement Gap in AP among
Hispanic students, according to the College Board's AP Report to the
Nation (2011) are: District of Columbia, Louisiana, Mississippi, North
Dakota, Florida, Alaska, Maryland, Arkansas, South Dakota, Georgia,
Virginia, Kentucky, Alabama, Ohio.
    7. States that have eliminated the Achievement Gap in AP among both
Hispanic and Native American students are: Mississippi, Maryland,
Arkansas, Georgia, Virginia, Kentucky, Ohio (College Board, 2011).
    8. Rising Above the Gathering Storm, The National Academies Press,
Washington, DC, 2005.
    9. Protecting America's Competitive Edge Act--S. 2197, 2198 and
2199--was introduced by U.S. Senators Lamar Alexander, Jeff Bingaman,
Pete Domenici, and Barbara Mikulski. It called to increase Federal
funding for science and education programs. The legislation stemmed
from the Rising Above the Gathering Storm report, outlining a plan to
ensure U.S. economic competitiveness with the rest of the world, that
was requested by Senators Bingaman and Alexander.
                              Bibliography
2011 Condition of College and Career Readiness, ACT, Iowa City, IA.
Advanced Placement Report to the Nation 2011, College Board, New York,
    NY, 2011.
Advanced Placement Report to the Nation 2011 State Supplement: New
    Mexico, College Board, New York, NY, 2011.
Enrollment by Ethnicity 2009-10, School Fact Sheets, New Mexico Public
    Education Department, Santa Fe, NM, 2012.
Free/Reduced Lunch 2011-12, School Fact Sheets, New Mexico Public
    Education Department, Santa Fe, NM, 2012.
How Groups Fared in U.S. Jobs Data, at a Glance, Associated Press,
    April 6, 2012. Available at http://abcnews.go.com/Business/
    wireStory/groups-fared-us-jobs-data-glance-16086632#.T4hYctn82uI.
Leaders and Laggards: A State-by-State Report Card on Educational
    Effectiveness, Center for American Progress, Washington DC, 2007.
Legislative Education Study Committee Public School Reference Guide
    2012, New Mexico Legislative Education Study Committee, Santa Fe,
    NM, 2012.
The Nation's Report Card: Reading 2011, National Center for Education
    Statistics, Alexandria, VA, 2011.
The Nation's Report Card: Mathematics 2011, National Center for
    Education Statistics, Alexandria, VA, 2011.
Measuring Up 2008: The National Report Card on Higher Education, The
    National Center for Public Policy and Higher Education, San Jose,
    CA, 2008.
The Widget Effect: Our National Failure to Acknowledge and Act on
    Differences in Teacher Effectiveness, D. Weisberg, S. Sexton, J.
    Mulhern & D. Keeling, The New Teacher Project, Brooklyn, NY, 2009.
School Directory Information, National Center for Education Statistics,
    2012.
Understanding the Economy: Unemployment Among Young Workers, C.B.
    Maloney, U.S. Congress Joint Economic Committee, Washington, DC,
    2010.
                                 ______

                       Attachment--Concept Paper
                           executive summary
    The College Board's Advanced Placement (AP) program is an important
means through which the Advanced Programs Initiative (API) fulfills its
mission to prepare students for academic success in high school and in
college. API believes that the New Mexican public school system must
dramatically increase rigor in the K-12 curriculum so that many more
students, especially minority and low-income students, can benefit from
participation in advanced courses, like AP, that are known to
contribute to high school and college completion. If New Mexico is to
achieve this goal, it must have well-prepared teachers who have the
subject-matter knowledge and teaching skills to teach all students. The
Advanced Placement program provides evidence not only about the effect
that expert teachers have on improving student performance,
particularly in critical disciplines like math, science and English,
but also on the type and quality of professional preparation needed to
develop master teachers.
    API must ensure that its grant making in New Mexico public schools
is being directed toward the area of greatest need and greatest impact,
which is teaching and learning. Here we mean the careful alignment of
curriculum, instruction and assessment, which is exemplified by the
Advanced Placement program. The API AP Fellows grant initiative, for
example, was designed to support the two essential elements of high
quality instruction: teacher effectiveness, which research demonstrates
is the single most important factor in promoting student learning; and
academic intensity in the high school curriculum, which ``matters
most'' to students' success in college, particularly for minority
students. Research tells us that students who participate in rigorous
courses in high school gain the confidence, study discipline, and
complex speaking, writing and reasoning skills needed to succeed in
college and in the workforce.
                              introduction
    The Advanced Programs Initiative (API) is the only statewide
educational foundation in New Mexico. Our mission is to ensure that all
New Mexican students are prepared with the advanced knowledge and
skills they need to earn high school and college degrees. We reach this
goal by working at the district level, hand-in-hand with public school
leaders and teachers, to promote proven practices that we know work to
improve student achievement.
    On almost every measure of expected quality of life from poverty to
academic performance, New Mexico's children fall woefully short, and
the argument could be made that our State is doing a terrible
disservice to these children in not placing a greater reliance on
evidence-based solutions for getting results. The following few facts
illustrate the scope of the problem:

    <bullet> According to the 2011 National Assessment of Educational
Progress (NAEP), New Mexico's reading and math scores for fourth and
eighth grade students are in the bottom decile of all States.
    <bullet> The 2011 ``Quality Counts'' report ranks New Mexico 50th
in students' ``Chance for Success,'' and 47th in K-12 achievement.
        strengthening the impact of the ap program in new mexico
    Advanced Placement, administered since 1955 by the College Board,
the sponsors of the SAT college-entrance test, was designed to make
students more productive in college by exposing them to nationally
developed and nationally sanctioned college-level courses and exams
while still in high school.
    More than 50 years of research has demonstrated that AP's impact
goes further. Students who participate in AP, whether or not they earn
a mastery score (an AP grade of 3 or better) on the exam, no matter
their income or ethnicity, have a significantly greater chance of
graduating from college than students who have not taken an AP course.
This research also tells us that students who do earn qualifying scores
on AP exams are three times more likely to earn a college degree than
students who score below 3 on the exam.
    Despite the success of Advanced Placement in many States, New
Mexico trails the Nation in the adoption and acceleration of Advanced
Placement coursework and teachers in its public schools. In high
performing States like Maryland and New York, nearly a quarter of all
high school seniors pass an Advanced Placement course with an exam
grade of 3 or higher, well enough to qualify for college credit. New
Mexico ranks in the bottom tier of States with 10 percent of high
school seniors scoring a grade 3 or higher on an AP exam, compared to
17 percent for the Nation. And while the College Board recognizes that
New Mexico had the largest share of any State of Hispanic students who
passed AP exams in 2011, this is at least partly attributable to the
fact that New Mexico has the highest proportion of Hispanic students in
its general school population and fewer exam-takers overall.
    If we are to scale-up the known benefits of the Advanced Placement
program in New Mexico and elsewhere, we must expand the number of
certified AP teachers, improve their effectiveness with all types of
students, and make them leaders in the development of other teachers.
    API is committed to the processes of identifying, training, and
supporting these great teachers with its AP Fellows program, a
competitive grant program for AP math, science and English teachers in
our partner schools and districts. API is investing in the areas that
research shows will have the largest impact: teacher professionalism,
teacher leadership and teacher time with students. At the same time,
the AP enrichment and incentive programs pioneered by the Dallas-based
O'Donnell Foundation and National Math and Science Initiative have
informed our efforts.
    building a community of exceptional ap teachers for new mexico:
                        api's ap fellows program
    Although our primary goal in the AP Fellows program is to identify
and support great teachers, API also is committed to working through
those teachers to transform the culture of learning in schools.
Therefore, teachers within a high school are invited to apply to the
program only after API has vetted the potential for improvement at the
school and district levels, according to such criteria as:

    <bullet> District and school leadership;
    <bullet> District and school commitment to rigorous coursework, as
demonstrated by expectations that all students should have pre-AP and
AP coursework in high school;
    <bullet> API's independent analysis of the historical performance
of the district AP program; and
    <bullet> District and school commitment to teacher collaboration,
as demonstrated by coordinated prep time among teachers and support for
vertical teaming within disciplines.

    The bulk of grant funding for the AP Fellows program goes directly
into teaching supports. The application process requires teachers to
submit prior-years' AP student performance data, and includes a short
statement of personal interest and commitment. We evaluate applicants'
skills, knowledge and philosophy based on a variety of factors,
including classroom observations. Candidates selected for the program
are eligible to be considered for support for at least three
consecutive academic years. Following their participation in the
program, AP Fellows may become Master Teachers, working to mentor
others.
    The outcomes of the AP Fellows program are to improve both
participation in AP courses and success on AP exams. AP teacher fellows
receive the following assistance:

    <bullet> Professional development, including 1-day, 2-day and 5-day
trainings as needed;
    <bullet> Reduced AP exam fees for qualifying students;
    <bullet> Facilitated additional time on Saturdays with their
students;
    <bullet> Facilitated outreach to prospective new AP students;
    <bullet> Advice and support from Master Teachers;
    <bullet> Access to advanced on-line homework resources;
    <bullet> Support from an onsite Grant Coordinator;
    <bullet> $500 teacher stipend for leading student and school
activities;
    <bullet> $1,000 bonus for those teachers who reach a threshold
percentage of students achieving an exam score of 3 or higher;
    <bullet> Access to funding for travel, equipment, student
recognition, and meals.

    Fellows commit to the following annual activities:

    <bullet> Review school-level data to identify high-potential
students who should be recruited into AP courses;
    <bullet> Make personal presentations to students in pre-AP or other
feeder courses in their discipline and at school-wide AP student and
parent outreach events;
    <bullet> Prepare and present structured student tutorials every
month;
    <bullet> Collaborate with Master Teachers and AP Coordinators in
the provision of 3-day-long student Saturday tutorials per discipline
per year;
    <bullet> Attend 5-day summer institutes as recommended by the API
management team;
    <bullet> Attend 2-day and/or 1-day trainings as recommended by the
API management team;
    <bullet> Help lead at least four vertical team meetings organized
by the school or the district with pre-AP or pre-AP-level colleagues in
middle and high school.
                         research and outcomes
    The API research team, led by Professor Howard Everson of the City
University of New York's Center for Advanced Study in Education, is
following the progress of students who participate in our AP program,
not only to assess how well they did in the AP courses, but to collect
the trend data that will, over several years, provide information about
the effectiveness of our teacher fellows, the effect of AP course-
taking on future achievement in high school and in college, and other
research questions that relate to API's core goal of increasing
academic achievement for all New Mexican students.

    Senator Bingaman. Thank you very much.
    Mr. Vargas, go right ahead.

           STATEMENT OF JOEL VARGAS, VICE PRESIDENT,
                JOBS FOR THE FUTURE, BOSTON, MA

    Mr. Vargas. Thank you very much. I would like to thank you,
Senator Bingaman, and I would also like to thank Chairman
Harkin, Ranking Member Enzi, and the honorable members of the
Senate HELP committee, those who are here today and those who
are not.
    Thank you for inviting me to speak with you. Also, I want
to start off by thanking you for your tireless commitment to
ensuring that every student and worker in our country has the
education, training, and opportunity they need to be successful
in today's economy.
    It is an honor to share with you the work of Jobs for the
Future and our experience in accelerating the college readiness
and success of low-income students and other students
underrepresented in higher education. Let me just say a word
about JFF.
    We identify, develop, and promote education and workforce
strategies that expand opportunity for youth and adults who are
struggling. In this pursuit, our organization, in collaboration
with partners nationally, has developed and sustained a
national network of Early College High Schools for more than a
decade. And this movement is one of the largest and most
successful secondary school reform initiatives in the United
States.
    Since 2002, Early College schools have achieved a record of
success in increasing student achievement and high school
graduation rates, college enrollment, and college attainment.
There are now more than 270 Early College schools in the
country preparing low-income youngsters, students of color, and
first generation college goers for college success. The schools
serve approximately 75,000 students and are thriving in over 24
States.
    Early College blends high school and college in a rigorous
and supportive academic program that culminates in the
completion of key college courses by all students. These
schools really transform the lives of young people. As one
Early College student with multiple college credits to her name
explained, ``Before Early College, I had never thought college
was remotely possible.''
    The urgency for innovative models that propel underserved
youth to college is great. To echo some of the remarks of my
colleagues here, they represent some of the fastest growing
segments of our future workforce, but they have traditionally
had the lowest educational attainment rates.
    Early College schools are a proven reform that is uniquely
equipped to meet this challenge. Studies have shown that Early
College students' success rates far exceed national and local
averages. So allow me to share some of the statistics with you.
Ninety-three percent of students graduate from high school
compared to 76 percent of students in their respective
districts. Graduates of Early College earn 23 college credits,
on average, and 56 percent of the class of 2011 graduates earns
2 years of college credits or an associate's degree. Over 72
percent of graduates enroll in college compared to 55 percent
of graduates nationally from schools where a majority of
students like Early College is low income.
    And upon enrollment in college, our early evidence shows
that at least 82 percent of graduates persist to their second
year in college, compared to 69 percent of low-income students
are first generation college goers nationally.
    Early College is grounded in research that shows
underserved students face multiple barriers in earning post-
secondary credentials and that the most effective solutions
like Early College address the academic, financial, and social
challenges students face in a concerted way.
    For example, the ways that the schools do this, they
provide a rigorous college prep academic program aligned to
college-ready standards. They provide a sequence of free
college courses as part of the high school program of study.
They offer a significant exposure to the college environment
and culture. And they have supports that are focused on high
school and college completion.
    And the success of these schools has really made it a
popular approach even in what have been tough economic times. A
number of States, including leaders like North Carolina and
Texas, have continued their support for Early Colleges. Other
States including Kentucky, Massachusetts, New York, and Ohio
have appropriated new investments and are developing Early
Colleges.
    The growth of the movement has also had a ripple effect
with many communities embracing Early College, the Early
College philosophy, and independently launching their own
schools including Arrowhead Park Early College in New Mexico
and Chicago public schools, which are starting five STEM Early
College schools.
    The opportunity for early college, though, is not limited
to school-level reform. We are now working with partners to
apply the lessons of the original early college movement to
entire school districts.
    One example is in Pharr-San Juan-Alamo, a 32,000 student
district in a low-income Hispanic community in Texas. With JFF
and Educate Texas--our partner, which is a public-private State
partnership--the district is transforming its high schools to
enable all students to graduate with at least 12 college
credits.
    Congress has an important role to play to ensure that
successful approaches like this can reach more students.
Already, this committee has recognized this by including in the
Elementary and Secondary Education Act reauthorization
legislation the proposed Pathways to College competitive grant
that will provide support to districts implementing Early
College.
    The success of our low-income students is critical, as you
know, for our Nation to compete globally. And I just want to
thank, on behalf of my colleagues at JFF, the members of this
committee and Congress for your leadership in supporting
strategies with a track record of meeting this important goal.
    [The prepared statement of Mr. Vargas follows:]
                   Prepared Statement of Joel Vargas
                                summary
    The early college high school movement is one of largest and most
successful secondary school reform initiatives in the United States.
Since 2002, early college high schools have achieved a record of
success in increasing student achievement, high school graduation
rates, college enrollment, and college credit attainment. There are now
more than 270 early college high schools across the Nation, preparing
low-
income youngsters, students of color, and first-generation college-
goers for college success. These schools serve about 75,000 students.
    The early college design blends high school and college in a
rigorous and supportive academic program that culminates in the
completion of key college courses by all students. Early colleges
prepare low-income and other undeserved students for college through:
(1) A rigorous college-prep academic program aligned to college-ready
standards; (2) A sequence of free key college courses as part of the
high school program; (3) Significant exposure to the college
environment and culture; and (4) Wraparound supports focused on high
school and college success.
    These schools transform the lives of young people, who haven't
historically had the financial ability, academic preparation, and
college exposure necessary for college success. The urgency for
innovative models that propel underserved youth to college readiness
and success cannot be understated. In the United States today, fewer
than 75 percent of young people earn a high school diploma. For low-
income, African-American, and Hispanic youth, the picture is much
bleaker: only about 50 percent of these students graduate from high
school on time. Among students enrolling in college, only about half
graduate within 6 years; 25 percent for low-income students.
    Early College Achieve Results: Early college schools are a cost-
effective reform, uniquely equipped to meet this very challenge. Early
college has successfully increased the college readiness of rural,
urban, and suburban high-need students in low-income communities across
our country.
    <bullet> They have high rates of high school graduation and college
credit attainment: 93 percent of early college students graduate from
high school compared to 76 percent of students in their respective
districts. By graduation, students earn 23 college credits on average,
and 56 percent earn 2 years of college credit or an AA degree.
    <bullet> They have high college enrollment and persistence rates:
Over 72 percent of early college students enroll in post-secondary
education upon graduation compared to 55 percent of graduates
nationally from schools where a majority of students, like early
college schools, receive free or reduced price lunch. Upon enrollment
in college, at least 82 percent of early college graduates persist to
their second year, compared to 69 percent of low-income or first
generation students nationally.
    Expanding and Scaling Early College: Early college's track record
of success with high-need students and its ability to reduce costs has
made it a popular acceleration strategy even in tough economic times. A
number of States have continued significant investments in early
college high schools while other States have even appropriated new
investments. The growth of the early college movement has had a ripple
effect with many communities embracing the philosophy of the early
college high school and independently launching their own such schools.
    The opportunity for early college, however, is not limited to
school-level reform. Jobs for the Future has found that incorporating
key college courses and supports in high schools for all students is a
powerful strategy for catalyzing district reform and extending the
benefits of the early college approach to many more students. We are
now applying the lessons of the original early college movement to
larger schools and school systems.
    The HELP Committee and Congress as a whole has an important role to
play in making sure that successful approaches like early college can
reach more students, and the reauthorization of the Elementary and
Secondary Education Act, the Higher Education Act, and the Carl D.
Perkins Act all provide opportunities to include policies and direct
Federal resources that do such. Already, the HELP Committee has
recognized this by including in the ESEA reauthorization legislation
the proposed Pathways to College competitive grant that will provide
important support to districts adopting early college. The success of
our low-income students in high school and college is absolutely
necessary for our Nation to compete in the global economy, and early
college schools are one solution with a track record of meeting this
goal.
                                 ______

    Chairman Harkin, Ranking Member Enzi, and the Honorable Members of
the U.S. Senate HELP Committee, thank you for inviting me to speak with
you today. I'd also like to thank you for your tireless commitment to
ensuring that every student and worker in our country has the
education, training, and opportunity they need to be successful in
today's economy. The work of this committee is critical to the current
and future success of our communities and our Nation.
    As the vice president of Jobs for the Future's High School through
College team, it is an honor to share with you our work and experience
accelerating the college readiness and success of low-income students
and other students underrepresented in higher education.
    Jobs for the Future identifies, develops, and promotes education
and workforce strategies that expand opportunity for youth and adults
who are struggling in the United States today. Our mission, in concert
with our partners, is to double the number of low-income youth and
adults who attain post-secondary credentials. In this pursuit, our
organization, in collaboration with great partners, has developed and
sustained a national network of early college high schools for more
than a decade.
            early college: a powerful acceleration strategy
    The early college high school movement is one of the largest and
most successful secondary school reform initiatives in the United
States. Since 2002, early college high schools have achieved a record
of success in increasing student achievement, high school graduation
rates, college enrollment, and college credit attainment. There are now
more than 270 early college high schools across the Nation, preparing
low-income youngsters, students of color, and first-generation college-
goers for college success. Early college high schools serve
approximately 75,000 students and are thriving in many States
including:





        Alaska                            Kentucky            Pennsylvan
                                                       ia
        Arizona                           Maryland            Tennessee
        California                        New Mexico          Texas
        Connecticut                       North               Utah
                                   Carolina
        Colorado                          Oregon              Washington
        Georgia                           Ohio

    The early college design blends high school and college in a
rigorous and supportive academic program that culminates in the
completion of key college courses by all students. These schools
transform the lives of young people, who historically haven't had the
financial ability, academic preparation, and college knowledge
necessary to earn a post-secondary degree or credential. Students at
early college high schools have the opportunity to earn up to 2 years
of free college credits or an Associate degree while in high school. As
detailed later in this testimony, students from these schools are
graduating at higher rates, completing college prep and college courses
by graduation (many times with a college degree), and entering and
persisting in college. As one early college high school student with
multiple college credits to her name explained, ``[before early
college], I had never thought college was remotely possible.''
        the pressing need for successful acceleration strategies
    The urgency for innovative models that propel underserved youth to
college readiness and success cannot be understated:

    <bullet> In the United States today, fewer than 75 percent of young
people earn a high school diploma.\1\ For low-income, African-American,
and Hispanic youth, the picture is much bleaker: one national estimate
places their rate of on-time high school graduation at just 50
percent.\2\
    <bullet> Among those students who enroll in college, only about
half earn a diploma within 6 years. For low-income students, the
college completion rate drops to 25 percent.\3\
    <bullet> America's low graduation rates threaten our country's
global competitiveness and economic vitality. The United States ranks
only 12th among 36 developed nations in college graduation rates, when
only a generation ago the United States ranked first.\4\
    <bullet> Georgetown University researchers recently estimated that
the United States needs to increase college-educated workers by 20 to
25 million by 2025 to be first in the world again.\5\ The United States
cannot achieve this outcome without significantly increasing the number
of low-income and other high-need students who complete high school and
go on to earn post-secondary credentials.\6\

    Early college schools are uniquely equipped to meet this very
challenge, and help students who face the biggest barriers to
educational success beat the odds. Research has shown that early
college high schools help students surpass peers attending traditional
high schools in achieving milestones on the pathway to college
completion. And early college is a reform that can reach students no
matter where they go to school in the Nation. This acceleration
strategy has successfully increased the college readiness of rural,
urban, and suburban high-need students in low-income communities across
our country.
   early college schools achieve results and make a compelling impact
    The impact of early college is substantial. With a student
population primarily composed of students of color, low-income youth,
and first-generation college goers, early college schools are
overcoming historically low-education attainment levels. Early college
high school students achieve milestones toward a college degree at
rates that far exceed national and local averages:

    <bullet> Progress in college-preparatory courses: Rigorous studies
have shown that early college high school students in Texas are two
times more likely to pass State exams in all four core subject areas
than peers in comparison schools and more than two times more likely to
pass the next math courses in the college prep sequence.\7\ Another
study found similar results and demonstrated that early college high
schools reduce high school dropouts.\8\
    <bullet> Graduation rates: 93 percent of early college students
graduate from high school compared to 76 percent of students in their
respective districts.\9\
    <bullet> College credit attainment in high school: By graduation,
early college students earn 23 college credits on average, and 56
percent of the graduates of 2011 earned 2 years of college credit or an
AA degree.\10\
    <bullet> College enrollment: At least 72 percent of early college
high school students enroll in post-secondary education upon graduation
compared to 55 percent of graduates nationally from schools where a
majority of students, like early college schools, receive free or
reduced price lunch.\11\
    <bullet> Persistence rates: Upon enrollment in college, at least 82
percent of early college high school graduates persist to their second
year, compared to 69 percent of low-income students or first-generation
college goers nationally.\12\

    Studies have also shown that early college high school is a cost-
effective proposition that reduces the expense of remediation in
college for students who are not college-ready. With the help of school
finance experts, Augenblick, Palaich, and Associates, JFF has developed
a financial model that projects the cost-benefit to States graduating
more students college-ready.\13\ For example, students who graduated
from an early college in Texas with an average of 40 college credits
will save the State an estimated $6,800 per student completing an
Associate's Degree and $10,500 per student completing a Bachelor's
degree.\14\
                  the common elements of early college
    In contrast to many selective programs that provide accelerated
work only for advanced students, early college high schools are focused
on preparing all students for success at the post-secondary level.
While specific programming may vary from school to school, early
college high schools are all committed to preparing low-
income youngsters, students of color, and first-time college goers for
college through:

    <bullet> A rigorous college-prep academic program aligned to
college-ready standards. Through a program of demanding college-
preparatory and college courses, early college schools challenge
students to reach new academic heights while providing appropriate
support. The introduction of college coursework into the high school
program provides students with direct evidence of their readiness for
college and motivates them to improve their skills. As one early
college student at Lincoln Hostos Academy in New York put it: ``college
makes you a better high school student.''
    <bullet> A sequence of free key college courses as part of the high
school program of study. Early college high schools offer aligned
course sequences that result in students taking transferable college
credits that lead to a post-secondary degree. These carefully
constructed pathways remove cost barriers for low-income students and
set them on a direct path to completing college. In some cases,
students begin their college coursework by taking stretch courses that
transform a college semester course into a yearlong course, while in
other cases, such as at Ohio's Metro Early College, students are placed
in their college courses with a cohort of peers so that students can
provide support to each other. In all cases, the courses that early
college students enroll in meet rigorous academic standards and are
taught by full-time college faculty or adjunct faculty certified by
partner colleges.
    <bullet> Significant exposure to the college environment and
culture. From orientation to college classes, the experience at early
college is structured to raise expectations and increase knowledge
about college for all students, and particularly those students who
lack the tradition of college going in their family and community. Many
early college high schools reside on college campuses and students
benefit from being immersed in a college-going culture. Early college
schools that are not at college sites help students develop college-
going identities by exposing students to campus life regularly and
organizing a range of programs to demystify the process of applying to,
attending, and succeeding in college. For example, at Alameda Science
and Technology Institute in California, early college juniors take part
in a summer bridge program that includes a seminar-style college class
on campus.
    <bullet> Wraparound supports focused on high school and college
completion. Early college schools accelerate all students to greater
achievement, even those entering with significant skill gaps, by
relying on high-quality instructional practices and academic supports.
Early college schools use instructional approaches that help students
access advanced content even as they are mastering more basic skills.
Early college schools also employ intensive tutoring, strong peer and
adult support systems, and scheduling that maximize time for college
connections and academic support. For instance, at Buncombe County
Early College in North Carolina, staff arranged for students to have an
extra support period with a high school teacher in the content area of
their college course.

    Early college schools work for low-income students, students of
color, and first-generation college goers because they are designed to
remove multiple barriers in attending and completing college. The
philosophy behind this approach is grounded in decades of research that
show that the most effective college access and success strategies for
these students address the academic, financial, and social challenges
they face in a concerted fashion. Early college schools do just that.
                  expanding and scaling early college
    Early college's track record of success with high-need students and
its ability to reduce costs has made it a popular acceleration strategy
even in tough economic times. Despite the severe cuts in State budgets
in recent years, a number of States have continued significant
investments in early college high schools and even appropriated new
investments. North Carolina now leads the Nation with 74 early college
high schools and Texas is close behind with 49. New York State
established a program to create 23 early college high schools and
Massachusetts is developing six STEM-focused early college high
schools. Kentucky has invested in six new early college high schools
and has plans to create six more in the coming year while Ohio is
adding six new schools to its early college portfolio.
    At the local level, the growth of the original Early College High
School Initiative network has had a ripple effect with many communities
embracing the philosophy of the early college high school and
independently launching their own such schools. Throughout the country,
there are now dozens of these schools including Arrowhead Park Early
College High School in New Mexico. And Chicago recently asked Jobs for
the Future for our help supporting its new initiative to create five
Early College STEM High Schools.
    The opportunity for early college, however, is not limited to
school-level reform. At Jobs for the Future, we've found that
incorporating key college courses and supports in high schools for all
students is a powerful strategy for catalyzing district reform and
extending the benefits of the early college approach to many more
students. We are now working with partners to develop a range of
designs that apply the lessons of the original early college movement--
composed largely of small high schools to date--to entire school
systems in the future.
    One noteworthy example is Pharr-San Juan-Alamo Independent School
District, a school system with 32,000 students in a low-income Hispanic
community in Texas. With Jobs for the Future and Educate Texas (a
public-private State partnership), the district is transforming its
schools to enable all students to graduate from high school with at
least 12 college credits and the skills to progress to a degree or
credential. Initial data is very promising--the district has become a
national model for dropout recovery, having graduated nearly 900 former
dropouts and off-track students--and connected them to college--since
2007. Pharr-San Juan-Alamo has raised its 4-year graduation rates from
62 percent to 87 percent in 3 years. And between 2007 and 2009, the
district doubled its number of students enrolling in college after
graduation.
    With the widespread adoption of college-ready standards by States,
it is even more critical than ever that districts have access to the
structures, supports, and practices that will enable them to prepare
all of their students for college success. Early college is a powerful
reform that has already propelled thousands of young people, not
historically expected to earn a high school diploma and enroll in
college, to earn meaningful college credits on the path to a post-
secondary credential or degree.
    The HELP Committee and Congress as a whole has an important role to
play in making sure that successful approaches like early college can
reach more students in communities across our Nation. Already, the HELP
Committee has recognized this impact and further promise by including
in the ESEA reauthorization legislation the proposed Pathways to
College competitive grant that will provide important support to
districts implementing early college designs.
    The reauthorization of the Elementary and Secondary Education Act,
the Higher Education Act, and the Carl D. Perkins Career and Technical
Education Act all provide opportunities to include policies and direct
Federal resources that promote secondary and post-secondary
collaborations, early college credit accrual, and financial and
academic supports for early college students. For example, each of
these laws should include post-secondary enrollment, persistence, and
credit/credential attainment in its accountability and reporting
expectations to ensure post-secondary success for all students. Data,
accountability, and teacher and leader preparation and supports
provisions in these laws can all put a premium on partnerships
facilitating innovative programming like early college high schools for
low-income, underrepresented students. As an example, Perkins should
encourage the development of innovations such as career pathways for
students that result in early attainment of post-secondary credits in
high school, with the end goal of a credential with value in the labor
market. The success of our low-income students in secondary and post-
secondary education is absolutely necessary for our Nation to compete
in the global economy, and early college high schools are one solution
with a track record of meeting this goal.
    One early college senior from one of the most economically
depressed metropolitan areas with one of the lowest number of college-
educated adults explained it best.

          ``My classmates and I will enter the university full-time
        following graduation next year knowing that college will not be
        a road block and will not be impossible to complete . . . early
        college brings out the best in all students.''
                                Endnotes
    1. Aud, S., Hussar, W., Kena, G., Bianco, K., Frohlich, L., Kemp,
J., Tahan, K. (2011). The Condition of Education 2011 (NCES 2011-033).
U.S. Department of Education, National Center for Education Statistics.
Washington, DC: U.S. Government Printing Office, 2011.
    2. Spotlight on Poverty Spotlight on Poverty and Opportunity.
``Education and Poverty.'' Spotlight on Poverty and Opportunity. Web.
31 July 2011. <http://www.spotlightonpoverty.org/
education_and_poverty.aspx>.
    3. Spotlight on Poverty Spotlight on Poverty and Opportunity.
``Education and Poverty.'' Spotlight on Poverty and Opportunity. Web.
31 July 2011. <http://www.spotlightonpoverty.org/
education_and_poverty.aspx>.
    4. Organization for Economic Co-Operation and Development.
``Education at a Glance: 2010,'' 26. Web 31 July 2011. <http://
www.oecd.org/dataoecd/45/39/45926093.pdf>
    5. Carnevale, A., and Rose, S. The Undereducated American.
Washington: Georgetown Center on Education and the Workforce, 2011.
    6. National Center for Higher Education Management Systems. Adding
It Up: State Challenges for Increasing College Access and Success.
Boulder: NCHEMS, 2007.
    7. SRI International. (Forthcoming). Evaluation of the Texas High
School Project: First comprehensive annual report. Austin, TX: Texas
Education Agency.
    8. Edmunds, J.A., Willse, J., Arshavsky, N., and Dallas, A.
``Mandated Engagement: The Impact of Early College High Schools.''
Harvard Education Review, under review.
    9. Data are drawn from the ECHS Student Information System and
based on publicly reported State data for early college schools and
their home districts in 2010-11. The rates reported here are median 4-
year graduation rates.
    10. These data come from the ECHS Annual National Survey 2010-11.
    11. The national college enrollment rate is drawn from: U.S.
Department of Education, National Center for Education Statistics,
Schools and Staffing Survey (SASS), ``Public School Questionnaire,''
2003-4. Early college data is drawn from the National Student
Clearinghouse.
    12. The persistence rate for low-income/first generation students
is drawn from: Engle, J., & Tinto, V. (2008). Moving beyond access:
College success for low-income, first-generation students. St. Paul,
MN: Pell Institute for the Study of Opportunity in Higher Education.
Retrieved from ERIC database. (ED 504448). Early college data is drawn
from the National Student Clearinghouse.
    13. Jobs for the Future and Augenblick, Palaich, and Associates
(2010). Cost to Completion Calculator. Retrieved from http://
application.jff.org/costtocompletion.
    14. Jobs for the Future (2011). Making the Grade: Texas Early
College High Schools Prepare Students for College. Boston, MA.

    Senator Bingaman. Thank you very much. Thank you all for
your excellent testimony.
    We have been joined by Senator Bennet, who is really the
only bona fide expert on education in the Senate, as far as I
know having run a school district, a very large school district
himself.
    Let me start with some questions and then I am sure Senator
Franken and Senator Bennet will have questions. One obvious
threshold question is the issue of Federal support for what we
are talking about here. I am concerned, of course, that we are,
apparently, cutting back on Federal support for AP. I think it
was $43 million, now down to $27 million.
    What is the impact of this going to be on the ability of
this program to continue to grow around the country? Do we have
a sense of what the importance of Federal support is in this
area? Mr. Rudin, did you have a thought on that?
    Mr. Rudin. Yes, Mr. Chairman. That concerns us too. We are
worried about the reduction in funding. We think it will have
an impact on especially low-income participation in AP courses,
because those funds are used to help cover the AP exam fee. The
other portion, of the funds, is used to support teacher
training programs through grants to States and school
districts.
    That was a significant reduction. We are grateful for the
fact that the program was not eliminated and much good can come
from the $27 million that remains, so we are very happy for
that.
    One of the things that has happened in just the last week,
I think, is due in large part to encouragement, if you will,
from the Senate. The Department of Education is moving funds
around to cover the AP exam fees and make up some of this
deficiency. There will be anywhere from $5 to $10 million in
funding within the Department shifted to this program so that
it can cover the cost of AP exam fees for students. That is a
good stopgap measure for this set of exams coming up next
month. This full funding will enable more than 550,000 students
to take the AP exam at no cost.
    We are worried about next year and we will be bringing you
data on the value of this Federal investment in terms of both
college readiness and completion for low-income students and
savings on tuition costs for those students.
    We were discouraged by the reduction in funding. We are
hoping to see it restored. We are grateful to the Senate and
the Department for, at least for this year, salvaging as much
funding as possible.
    Senator Bingaman. Let me ask a general question for any of
you that want to comment on it.
    It seems to me that we have a variety of approaches here,
all of which have a lot of merit. But in the case of Advanced
Placement, it has always seemed to me that the value of
Advanced Placement is the rigorous standards that it puts in
place and insists upon, and the training of teachers to teach
those courses, which I think, generally involves upgrading of
the teaching profession throughout.
    When we have just dual credit courses in our high schools,
I do not know that we have the same assurance about the rigor
of the standards and I do not know that we have the same focus
on upgrading teacher skills to provide that instruction. And I
do not know if this is a valid concern on my part, but I just
want to get peoples' reaction to it.
    Mr. Winograd, did you have a thought on this?
    Mr. Winograd. Mr. Chairman, thank you so much for that.
    The question of rigor is an important one, so let me answer
it this way.
    One of the things that we need to watch with AP students,
with International Baccalaureate, with middle college high
schools, and with dual credit is, in fact, how students do once
they get to college. And so, for us to be able to follow those
students, make sure they get through college, they take
rigorous courses in college, and how they graduate from college
is really the gold standard of rigor. We want to be able to see
that.
    I think I mentioned at the very beginning, I think all of
these accelerated learning programs have some important lessons
for education in general. You put your finger on two of them:
one is rigor of coursework; the other is the quality of the
teacher. Those two are essential.
    But I believe there are two other things within our
programs that are important for all of them, American
education. One is that it engages the student; you get students
who are engaged.
    There is a huge issue in New Mexico, the number of kids who
dropout. By having a rigor, by having courses that are
relevant, by having courses they see the value of, that is
really important.
    The other, and you have heard it from all of us is this
gives kids, especially kids who may not have ever thought about
it, the aspiration to go to college. That is essential. One of
the ways we do real damage to our kids is we lower their
expectations. ``You are not good enough to go to college.'' And
when they are successful in these programs, that is important.
    Then the last, which is really essential for our kids in
New Mexico, but across the country, are the kinds of supports
that they get. A lot of our students are dealing with all kinds
of social issues, health issues, drug issues, gang issues and
these successful programs like Early College High School, the
one in Las Cruces, Arrowhead, some of the other kinds of
partnerships that we have across New Mexico give kids support.
    So in direct answer to your question, rigor is important,
but one of the ways we see that is to make sure that kids are
actually successful when they go to college for a career. And
these approaches have important lessons for all of American
education, and we need to pay attention to those.
    Senator Bingaman. Why don't we do this: since my time has
already expired, why don't we go to Senator Franken, and then
Senator Bennet, and then I will come back and ask some more
questions.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman, for coming to me
because unfortunately, after I finish my questions, I am going
to have to go to another hearing.
    Miss Bacon Dickson, of course, I share your conviction that
all our teachers should be excellent teachers. We must, I
believe, improve professional development and advancement
opportunities for STEM teachers. We lose a lot of STEM teachers
because their skills on the open market tend to be compensated
higher. On the open market, they get more than they would get
teaching. I think for all teachers that might be true, but
especially STEM teachers.
    I introduced a piece of legislation, the STEM Master
Teacher Corps Act to recognize and retain teachers, because you
were talking about training STEM teachers. I would like to
retain them once we get them. And this would reward high
performing STEM teachers in high-needs schools by giving them a
master teacher designation, and let them mentor other STEM
teachers.
    Do you see value in that kind of program?
    Ms. Dickson. There is great value in that kind of program.
We talk about strengthening the teacher corps. It is so
important right now.
    We have good teachers in our classrooms, but with
technology, with the new AP exams in the STEM fields, teachers
need a lot of retraining. They need mentoring. We find that to
really be successful in our teacher training programs, the
teachers come to the training, but then there has to be
followup mentoring.
    I think one of the greatest incentives for teachers is not
really the money, it is the recognition. It is when their peers
recognize that they are contributing some valuable skills to
their students and to their schools, that counts for a lot. And
I think the idea of a master teacher mentoring program,
especially in STEM--that is the hardest field for these
teachers and these students--is what this country needs.
    I also think that sitting here listening to all of these
three very good programs, I hope we can all work together and
share our mentors because when new teachers go in, they need
several years of induction and mentoring. We are doing a lot
more of that now online. They will have face to face initial
training, but then the mentoring is coming with some good
online services.
    But I think anything that will increase the quality of good
mentors and give recognition to our outstanding teachers is
critical to success.
    Senator Franken. Thank you. And by the way, I did not hear
anything from the panel on the International Baccalaureate
program, which I have heard also incredibly good things about.
St. Louis Park High School, which is in St. Louis Park, MN is a
high school, that at least last year, was named the No. 1
school in Minnesota and they used the International
Baccalaureate a lot, as well as AP.
    Mr. Rudin, in Minnesota we have a lot of disparities, and
we have significant disparities among high school students who
take AP courses. In 2011, there were about 11.5 times as many
middle- and high-income students taking AP exams as low-income
students. You also told us that a high percentage of minority
students who have demonstrated strong potential for success in
AP courses are not taking the courses.
    What are the reasons for these disparities? Is it because
low-
income and minority students often attend schools where AP
classes are less likely to be offered? Or is it because they do
not think they can succeed in these classes, or is it both?
    Mr. Rudin. Senator, thank you. That concerns us a great
deal. There is a huge disparity, especially among African-
American and Hispanic students, between those who should be
taking these courses that show the potential to do well, and
those who actually take them.
    We administer the PSAT exam at The College Board and about
3.5 million students a year take that. We have done research
that links PSAT performance to AP success. We can identify
millions of students who should be taking AP because we know
they would do well, but are not taking it.
    We did a survey of a number of the students who took the
PSAT, did well, but did not take AP, and also talked to their
teachers and administrators. And there are three or four
reasons why they do not take the course, all of which we can
overcome if we work at it.
    One is that they are simply discouraged. Counselors say,
``You are not an AP kid. Don't take the class.'' It is
discouraging to hear that, and I am sure Senator Bennet when he
was superintendent heard stories about that, and obviously
being a great superintendent, took steps to correct that. We
want counselors to encourage kids to achieve at these levels.
    But the other problem is that in 30 percent of our Nation's
high schools, there is no AP course offered, which is also
discouraging and that is often because there are not well-
qualified teachers to teach those courses. So this Federal
funding and in Minnesota, there is $4 million in State funding
for AP teacher training. So the State is working hard to
correct that. If we can get good teachers in place, we can
offer these courses.
    I think a third issue that arose is that parent support was
not where it should be. Sometimes parents say, ``Don't take
that hard course. You might get a `C' or a `D'. Take the easy
course, you will get an `A' '' College admissions officers tell
us they would rather have the student take the harder course
and get maybe a `B' or `C', than take the easy course and get
the `A'. They look at the transcripts carefully and especially
for low-income kids, there is great potential for achievement
by taking AP, getting into college, and completing college.
    Senator Franken. Thank you. Perhaps, I mean I am sure you
have, shared this correlation between scores on the PSAT and
success on the AP tests with the high school counselors, and
emphasize to them that these kids can do it.
    That would be a good thing and maybe get the counselors
talking to the parents about the importance of taking rigorous
tests in terms of admissions to college. That assumes, of
course, maybe more counselors because I know in Minnesota, we
have a very low ratio of counselors to students.
    I have to go. Thank you all. Thank you, Mr. Chairman.
    Senator Bingaman. Thank you.
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman. I also,
unfortunately, have an 11 o'clock agriculture committee meeting
that I have to get to.
    But I wanted to come, mostly, just to applaud all of you
for the work that you are doing, and to tell you, Mr. Chairman,
how much I appreciate the topic of this hearing because even
before you get to the question of accelerated learning, which
is so critical for all the reasons that the panelists have
said, I think it is worth thinking a little bit about where our
starting point is here in America.
    Because when I became Superintendent in Denver, I looked at
a lot of data. One of the most discouraging things I saw was
the remediation rate in mathematics of the kids that graduated
from Denver public schools and went on to college. These are
our most successful kids. And it turned out there were a lot of
reasons for that, but one of the reasons for that was that our
graduation requirement in mathematics was only 2 years. And
math, unlike other subjects, if you do not practice it, you
lose it, you forget it, and that was leading to these
remediation rates.
    Two years' graduation requirement, even though we say we
want mathematicians and engineers. Unless you pass the algebra
exam in the eighth grade, in which case, your reward for that,
what we were saying to our strongest adolescent mathematicians
was, ``You only have to take 1 year of math before you
graduate.'' That is true all over the United States.
    Today in Denver, you have to take 4 years of math and your
reward for passing that algebra exam in the eighth grade is
that you get to take higher level mathematics before you
graduate, usually a college class. And we have a long way to go
in Denver still, but there are 70 percent more kids today
taking college classes than in 2004, 72 percent increase in the
number of kids taking the AP, a huge number more that are
scoring 3 and above on their test.
    But most important of all, and I think Mr. Winograd touched
on this, there are 30 percent more kids in college today that
are products of Denver than in 2005.
    And it really began with rigor, which is what you guys are
talking about here, and Mr. Chairman, why this is so vitally
important. I mean, if we are not even expecting our kids to do
the work, why would we expect them to do the work? Just set a
standard that we actually believe in and understand.
    Having said all of that, I want to say thank you for
everything you are doing. I wonder, and I am going to absurdly
do an impolite thing of walking out because I have to get to
this other meeting, but I think the committee and the staff
here would benefit from hearing your thoughts about what we
could do--Mr. Vargas, touched on this a little bit--at the
Federal level to make sure that our K-12 system and our higher
education systems are actually talking together, that they are
integrated.
    Nobody came to me and said, ``Michael, the remediation
rates in mathematics for your graduates are ridiculous. You
better do something,'' you know, ``You had better do something
about it.'' I mean, we stumbled on that fact.
    And for our kids that are in high school--my own view is
that I think Early College, in particular, gives us the chance
to be able to integrate what we are doing in higher education
and what we are doing in K-12. But I wonder to what degree our
Federal policies, because we think about higher education as
being over here and K-12 as being over here, to say nothing of
how we think about early childhood education.
    Are there things, are there new approaches we could take
here that would incentivize people at the State level or at the
district level to think in a more integrated way about the
work? I do not know. Mr. Vargas, if you would like to start.
    Mr. Vargas. I appreciate the question.
    Senator Bennet. Thank you.
    Mr. Vargas. I appreciate the question, Senator, and the
chance to comment. And let me say that Colorado and New Mexico
are two of the leading States in the country in this
accelerated learning area, so it is an honor to be here with
you.
    To answer the question, I think I alluded, first of all, to
the Pathways to College provision in the Elementary and
Secondary Education Act reauthorization legislation that this
committee put forward as being an example. To the extent that
there are still incentives for innovation in the field, can
they be tailored so that to send the strong signals to States
and to local colleges and districts that their partnership
around these kinds of acceleration strategies would be
privileged in some way? That would receive some sort of
priority. So the Pathways to College provision is one example
of that.
    Another example would be all of the programs that are
currently funded, including ESEA, the reauthorization of the
Higher Education Act, the reauthorization of Perkins, they all
have reporting data and accountability requirements. If we can
be, if Congress can think about what kinds of signals they can
send to locals that would actually forge, incentivize,
encourage these types of partnerships. Such as let us look at,
and reward, and have grantees report on the extent to which
they have low-income students completing accelerated options
such as AP, such as dual enrollment. To what degree are they
earning college credit by the time they enter high school, by
the time they enter college, rather. That would provide some
signals to the field about the importance of incorporating
accelerated learning strategies into the curriculum.
    The last thing I would add there are teacher and support
provisions in many of these pieces of legislation that could be
also privileged to actually incentivize teacher training,
leadership training, that privileges programs that grow out of
partnerships such as Early College Schools or those that are
training AP teachers, for example.
    Senator Bingaman. Let me ask a question that probably I
should know the answer to. What is the difference between Early
College High Schools and middle college high schools, because I
have visited both in my State, and I am not clear in my mind
what the distinction is?
    Mr. Vargas. That is a great question. It is one we get a
lot. There is a lot of overlap because, in truth, a lot of the
Middle College Schools in the country became Early College
Schools. Middle Colleges, I believe, were actually lower and
the technical, direct answer to your question is Middle
Colleges are actually high schools that are based on college
campuses. And when they first began, I believe the first one
was at LaGuardia College in New York, and it is now an Early
Middle College. When it first began, it was really a program
designed to help students at risk of dropping out to make sure
that they stayed in school.
    During the course of their history, they found that some of
the students actually benefited from sometimes taking college
courses. But college courses were not an expectation of the
Middle College curriculum until they became Early Colleges. And
when they became an Early College, what they did is they were
not only based on a high school campus, but the expectation was
that all students would complete 1 to 2 years of college credit
or an Associate's Degree by the time they graduated.
    Senator Bingaman. Now, there is a pretty significant
distinction between high school students taking courses,
college-level courses in the high school that they are
attending and high school students taking college-level courses
at a school, a secondary college of some kind.
    What do we know about that? My impression is that the
opportunity--obviously, there are some circumstances where you
just cannot get from the high school that you are attending to
a college. So you do not have the opportunity of going to that
school to take the class. You may also not have the opportunity
to take the course in the high school, because the course is
not taught, the college-level course is not taught in the high
school. And I guess, then, your option is to do it online.
    To what extent is that a viable option? Or is this assuming
a level of discipline that is just not realistic to assume? Mr.
Winograd.
    Mr. Winograd. Mr. Chairman, about 40 percent of the
students in New Mexico actually take their course at the high
school, about 12 percent take it online. So you can see some of
the percentages there.
    Senator Bingaman. And the other 48 percent go to the
college?
    Mr. Winograd. Yes, sir.
    Senator Bingaman. To the community college or the
university.
    Mr. Winograd. Yes, sir.
    Senator Bingaman. And take the course physically there in
the classroom.
    Mr. Winograd. Yes, sir, they do.
    Senator Bingaman. What do we know about the results, if
anything? Do we know about which of these methods works best or
what the advantages or disadvantages of them are?
    Mr. Winograd. One of the things that we have found from our
research is that the students who take courses at the high
school actually score a little bit higher in GPA, which has led
to the concern that you voiced earlier: are those courses
taught at the high school less rigorous than those that are
taught on the college campus? It is one of the things we really
need to look at.
    The issue again as you know, Mr. Chairman, in New Mexico is
we have got high schools all over and the physical distance
between a college campus and a high school is too far to bus
kids.
    So the important thing is: how do we ensure rigor across
all of those courses? Your comments earlier were right on
target. How do we ensure rigor when we do distance courses?
    One of the things that is out there, which is pretty
promising, is the National Alliance of Concurrent Enrollment
Partnerships has a series of strategies for ensuring rigor and
consistency, and we think those are worth exploring. It's
collaborative approach is to program approval, periodic program
reviews, student outcome analysis, regular collegial meetings,
course approvals, periodic reviews of district college
agreements, and annual reporting.
    And to my colleague's point, as you all are thinking about
funding, Federal funding, to incentivize colleges and schools
working together so that money does flow to where there are
partnerships, and to put some teeth into the accountability
measures. How do these programs show rigor? How do they show
the outcomes? How do you show that it is actually reaching
rural students, or students of color, students of poverty?
    But this issue about high school, whether it is on high
school or on campus is a big one. I do want to point out one of
the concerns we have heard is, ``Why am I going to put a 15- or
16-year-old high school student on a college campus? How do we
make sure there is safety there?'' That is one of the issues
that we have to think about as well.
    Senator Bingaman. Mr. Rudin.
    Mr. Rudin. Yes, Mr. Chairman, thank you. Let me respond to
both. You raised two points, really.
    One is The College Board is a huge fan of all of these
programs: dual credit, early college, dual enrollment, all of
these programs. There is a program out there for every student
and our job is to figure out what the best fit is for each
child.
    This gets to Senator Bennet's question, if I may--he asked,
what can the Federal Government do? I would like to propose one
very specific thing as you reauthorize ESEA and you look at the
title II, the current title II, for teacher training.
    I would ask that you think about setting aside a
significant proportion of those funds, 15, 20, 30 percent for
the training of teachers, including online training, of
accelerated programs. Why not dedicate a portion of those funds
to programs that work and you have the data that prove they
work, and that really help kids. So I would ask you to consider
dedicating those, a portion of the title II funds, whatever,
however this all turns out to accelerated learning programs,
and the teacher training for them.
    On online learning, Mr. Chairman, we have a lot of work to
do. New Mexico's IDEAL-NM program is an important virtual
opportunity for students, and it is one of our best AP options
across the country. But we still only have 1 percent of the
kids who take AP taking it online. We need to do better. We
need to make the courses more accessible.
    One of the challenges we face, and I think we all face
this, simply having a student in isolation at home at night
taking the course does not seem to be as effective as when you
offer the course online, but provide a teacher or a mentor
onsite with the student during the school day so that they can
get extra help because these are tough courses. It is hard to
take calculus in the classroom let alone online.
    So if you can get a teacher or a mentor to support them, or
even a college faculty member to support them, they are much
more likely to be successful than if they are simply taking it
online on their own with no live support.
    Senator Bingaman. Yes, Miss Schubert.
    Ms. Schubert. Mr. Chairman, I hope you will not think this
is too heretical, but I want to respond to Senator Bennet's
question as well in a slightly different way.
    I think everything that we have been talking about here
today has been sort of product of the historical environment.
Standards and rigor in the American public school curriculum
simply were not there.
    With the Common Core State Standards, which is a State's
initiative and is not in the purview of the Federal Government
per se, we literally are requiring of all teachers in the
United States, grades K-12 to take on the kinds of teaching,
content knowledge, the knowledge of how to work at different
levels with different students, very advanced sorts of
pedagogy, much more rigorous content for all teachers in the
United States, for all students.
    The kinds of requirements that we have had in the past,
essentially for AP students or students in Early College, have
become the standard that all students must meet. This is a
tremendously difficult bar for teachers to reach.
    But we know a lot. I mean part of the reason I framed my
testimony the way I did is because we know a lot from looking
at Advanced Placement in terms of the level of rigor in the
curriculum, assessments directly linked to instruction, and
requiring demonstration through written answers, and so forth,
demonstration of evidence and understanding. And then through
the kinds of professional development that Advanced Placement
has required, we know a lot about how to quickly start to bring
up these teacher skills.
    Just to give you a quick example, if you do not necessarily
know a lot about Common Core State Standards, algebraic
thinking is now becoming a requirement for kindergarteners. So
how do we reframe what we expect all students to know by
driving those advanced concepts that students oftentimes did
not get until 6th, 7th, 8th, 9th grade literally down into
elementary school?
    Particularly for math and science teachers, obviously the
UTeach program is an enormous resource that is going to be
addressing this issue at a national level. But for us in New
Mexico, we have some good methods to look at. We can look at
the Advanced Placement program. We can make Advanced Placement
teachers leaders in districts to help train other teachers to
these sorts of standards.
    But I would argue that rather than--I mean, of course, we
want programmatic funding. Of course, we want the Federal
funding designated in such a way that makes the most sense
because not all teacher professional development is equivalent.
    Teacher professional development of just sending teachers
to university to take a course in the summer is not the same as
targeted development with teachers about how to teach these
advanced concepts to underprepared students.
    If we are going to meet this bar of transforming the
country, transitioning the country to the Common Core State
Standards, we are going to have to do it in a very methodical
way.
    I think that at the Federal level, you can send important
signals. The other important thing to know about the Common
Core is that assessments are going to be developed at the
national level like the Advanced Placement assessments. They
are not going to be developed inside State departments of
education. They are going to be developed, essentially, in
national consortia. We are going to start to get those sorts of
accountability data that Mr. Winograd was saying we need. We
are going to have a lot of elements of the system in place that
we know are the right ones. But there will be pushback. Once
results start coming through from those SBA's, States are going
to be kind of back pedaling.
    And so, at the Federal level, if we can get important
members of the HELP committee and important influential Members
of Congress understanding that we have to send a signal that
these are the standards that we must require for all students.
Whether or not they go to college, all students must be
prepared to go to college. And from where we are now to where
we need to get to is a gigantic leap, and we can look to the
Advanced Placement program as a method for helping us get
there. But I also think we need to stop distinguishing between,
say, Advanced Placement students and students who are in Early
College, and look at these as the standards for all students.
    Senator Bingaman. Well, I think this has been useful
testimony. I appreciate you all coming and participating. We
will try to take what you said, and see if there is any good we
can do with it around here.
    I appreciate it, and that will conclude our hearing.
    Ms. Schubert. Thank you, Senator.
    Mr. Winograd. Thank you, Senator.
    [Whereupon, at 11:18 a.m., the hearing was adjourned.]

                                   


</pre></body></html>
